<html>
<title> - 1890 LAND-GRANT INSTITUTIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
     1890 LAND-GRANT INSTITUTIONS--130 YEARS OF BUILDING EQUITY IN 
                              AGRICULTURE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 9, 2020

                               __________

                           Serial No. 116-38
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                 
                         
                           ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 42-617 PDF            WASHINGTON : 2020                          
                         
                         
                         
                         
                         
                         
                         
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JOSH HARDER, California              RALPH LEE ABRAHAM, Louisiana
KIM SCHRIER, Washington              TRENT KELLY, Mississippi
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California            CHRIS JACOBS, New York
ANN KIRKPATRICK, Arizona             TROY BALDERSON, Ohio
CYNTHIA AXNE, Iowa
XOCHITL TORRES SMALL, New Mexico

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

               STACEY E. PLASKETT, Virgin Islands, Chair

ANTONIO DELGADO, New York            NEAL P. DUNN, Florida Ranking 
TJ COX, California                   Minority Member
JOSH HARDER, California              GLENN THOMPSON, Pennsylvania
ANTHONY BRINDISI, New York           VICKY HARTZLER, Missouri
KIM SCHRIER, Washington              DOUG LaMALFA, California
CHELLIE PINGREE, Maine               RODNEY DAVIS, Illinois
SALUD O. CARBAJAL, California        TED S. YOHO, Florida
JIMMY PANETTA, California            MIKE BOST, Illinois
SEAN PATRICK MALONEY, New York       JIM HAGEDORN, Minnesota
AL LAWSON, Jr., Florida              CHRIS JACOBS, New York
XOCHITL TORRES SMALL, New Mexico

             Brandon Honeycutt, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Adams, Hon. Alma S., a Representative in Congress from North 
  Carolina, opening statement....................................     2
    Prepared statement...........................................     3
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................    18
Plaskett, Hon. Stacey E., a Delegate in Congress from Virgin 
  Islands, opening statement.....................................     1
Thompson, Hon. Glenn, a Representative in Congress from 
  Pennsylvania, opening statement................................     4

                               Witnesses

Abdullah, Ph.D., Makola M., President, Virginia State University; 
  Chair, Council of 1890 Universities, Association of Public and 
  Land-grant Universities, Petersburg, VA........................     5
    Prepared statement...........................................     7
Jones, Ph.D., Paul A., President, Fort Valley State University; 
  First Vice Chair, Council of 1890 Universities, Association of 
  Public and Land-grant Universities, Fort Valley, GA............    11
    Prepared statement...........................................    12
Nave, Ph.D., Felecia M., President and Institutional Executive 
  Officer, Alcorn State University, Lorman, MS...................    15
    Prepared statement...........................................    17


     1890 LAND-GRANT INSTITUTIONS--130 YEARS OF BUILDING EQUITY IN 
                              AGRICULTURE

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2020

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:03 a.m., via 
Webex, Hon. Stacey E. Plaskett [Chair of the Subcommittee] 
presiding.
    Members present: Representatives Plaskett, Delgado, Harder, 
Schrier, Pingree, Panetta, Lawson, Torres Small, Adams, 
Thompson, LaMalfa, Davis, Hagedorn, Jacobs, Baird, Johnson, and 
Conaway (ex officio).
    Staff present: Lyron Blum-Evitts, Ross Hettervig, Brandon 
Honeycutt, Chu-Yuan Hwang, Ricki Schroeder, Patricia Straughn, 
Jeremy Witte, Macey Hammerstrom, Dana Sandman, and Justina 
Graff.

  OPENING STATEMENT OF HON. STACEY E. PLASKETT, A DELEGATE IN 
                  CONGRESS FROM VIRGIN ISLANDS

    The Chair. This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research entitled, The 1890 
Land-Grant Institutions--130 Years of Building Equity in 
Agriculture, will come to order. Welcome and thank you for 
joining today's hearing. After brief opening remarks, Members 
will receive testimony from today's witnesses, and then the 
hearing will be open to questions. Members will be recognized 
in order of seniority, alternating between Majority and 
Minority Members. When you are recognized, you will be asked to 
unmute your microphone, and will have 5 minutes to ask your 
questions or make comments. If you are not speaking, I ask that 
you remain muted in order to minimize background noise. In 
order to get in as many questions as possible, the timer will 
stay consistently visible on your screen.
    Brandon, I will ask you to share in the chat if possible 
the order of Members so that I can be aware of who is, and who 
is not, available for us.
    It is my honor in this hearing to yield my opening 
statement to the Vice Chair of the Agriculture Committee, 
Congresswoman Alma Adams, who is also the co-Chair of the 
Congressional bipartisan Historically Black Colleges and 
Universities Caucus. She will provide an opening statement to 
bring today's discussions, and thank you so much to my 
colleague, Alma Adams, for all the work that you have done over 
the many decades in education, the support that you have for 
public education, and especially for historically Black 
colleges and universities.

 OPENING STATEMENT OF HON. ALMA S. ADAMS, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Ms. Adams. Thank you, Chair Plaskett. It is good to be 
here, and happy birthday to our 1890s.
    I am grateful for your strong leadership, Chair Plaskett, 
of the Biotechnology, Horticulture, and Research Subcommittee, 
and also for your foresight in calling this critically 
important hearing on 1890 Land-Grant Institutions--130 Years of 
Building Equity in Agriculture.
    Participating in today's hearing is special for me, because 
5 years ago when I first came to Congress, I had the honor of 
addressing the 1890s during an event celebrating their 125th 
anniversary. So, today we have come full circle.
    The Subcommittee has jurisdiction over matters that are 
related to research, education, and extension; issues that are 
central to the mission of this country's land-grant university 
system. That system, aimed at expanding post-secondary 
opportunities in agriculture and mechanical arts, was 
established following the passage of the First Morrill Act of 
1862. And while these institutions advanced agricultural 
education and increased the capacity of our agricultural 
sector, Black students were barred from easily accessing these 
opportunities. So, 28 years after the passage of the First 
Morrill Act, Congress passed the Second Morrill Act of 1890. 
This legislation prohibited racial discrimination in 
determining admission and led to the creation of the 1890 land-
grant university system, expanding educational opportunities 
for Black students. And since that time, the 19 HBCUs that make 
up the 1890 system have continued their mission of advancing 
equity in agriculture through research, education, and 
extension aimed at serving racial minorities, and historically 
under-served communities.
    In a year that has been marked by a surge of support for 
racial justice and a pandemic that has disproportionately 
impacted communities of color, I believe that the mission of 
the 1890 land-grant system is more important than ever. 
Congress and the Members of this Committee are committed to our 
support of the 1890 land-grants, as well as the students and 
the rural communities that it serves. This commitment was 
evident when looking back to the 2018 Farm Bill, and thanks to 
the leadership of Chairman Peterson and the strong advocacy of 
incoming Chairman Scott, and myself and other Members of this 
Committee, we were able to pass a strong bipartisan farm bill 
that included mandatory funding for scholarships to 1890 
institutions, established three Centers of Excellence to be led 
by 1890 universities, and corrected an inequity in the 
carryover of extension funds from year to year. So, I am proud 
that these provisions were included in the 2018 Farm Bill, but 
we still have a lot that we can do to support students and 
researchers.
    I would like to just take a moment to shine a spotlight on 
the important work that those students and professionals are 
doing at my alma mater twice-over, North Carolina A&T State 
University, which is the largest public HBCU in the nation.
    Earlier this year, they received a grant from USDA to 
establish the Center of Excellence to Motivate and Educate for 
Achievement, dedicated to encouraging and supporting young 
people from underrepresented minority groups to pursue studies 
and careers in food, agriculture, and natural resources. But 
despite their decades of success in supporting small and 
minority farmers and conducting cutting-edge agricultural 
research, A&T faces many of the same challenges as the 
institutions before us today, and I am excited that they are 
here.
    I look forward to hearing the testimony from our esteemed 
panel of witnesses on these issues and others, and I thank them 
in advance for taking the time to be with us this morning, and 
for all that they are doing for students. So, I hope that we 
get to hear your thoughts on the effectiveness of the 
implementation of the 2018 Farm Bill provisions, the additional 
areas for collaboration between Congress and the 1890 system, 
and how your institutions have been impacted by COVID-19 
pandemic.
    The Subcommittee and the Committee as a whole must have a 
solid understanding of your perspective as we look ahead to the 
next Congress and the next farm bill.
    Madam Chair, thank you so very much, and I yield back at 
this time.
    [The prepared statement of Ms. Adams follows:]

Prepared Statement of Hon. Alma S. Adams, a Representative in Congress 
                          from North Carolina
    Thank you Chair Plaskett.
    I'm grateful for your strong leadership of the Biotechnology, 
Horticulture, and Research Subcommittee and for your foresight in 
calling this critically important hearing on ``1890 Land-Grant 
Institutions--130 Years of Building Equity in Agriculture.''
    Participating in today's hearing is special for me--5 years ago, 
when I first came to Congress, I had the honor of addressing the 1890s 
during an event celebrating their 125th anniversary.
    Today, we've come full circle.
    This Subcommittee has jurisdiction over matters related to 
``research, education, and extension;'' issues that are central to the 
mission of this country's land-grant university system.
    That system, aimed at expanding post-secondary opportunities in 
agriculture, was established following the passage of the First Morrill 
Act of 1862.
    While these institutions advanced agriculture education and 
increased the capacity of our agriculture sector, Black students were 
barred from easily accessing these opportunities.
    So, twenty-eight years after the passage of the First Morrill Act, 
Congress passed the Second Morrill Act of 1890.
    This legislation prohibited racial discrimination in determining 
admission, leading to the creation of the 1890 land-grant university 
system and expanding educational opportunities for Black students.
    Since that time, the 19 HBCUs that make up the 1890 system have 
continued their mission of advancing equity in agriculture through 
research, education, and extension aimed at serving racial minorities 
and historically under-served communities.
    In a year that has been marked by a surge of support for racial 
justice and a pandemic that has disproportionately impacted communities 
of color, I believe that the mission of the 1890 land-grant system is 
more important as ever.
    That is why Congress and the Members of this Committee are 
committed in our support of the 1890 land-grant system, as well as the 
students and rural communities it serves.
    This commitment is evident when looking back to the 2018 Farm Bill.
    Thanks to the leadership of Chairman Peterson and the strong 
advocacy of incoming Chairman Scott, myself, and other Members of this 
Committee, we were able to pass a strong, bipartisan farm bill that 
included mandatory funding for scholarships to 1890 institutions, 
established three Centers of Excellence to be led by 1890 universities, 
and corrected an inequity in the carryover of extension funds from year 
to year.
    I am proud that these provisions were included in the 2018 Farm 
Bill, but there is always more than can be done to support our 
students, researchers, and extension professionals.
    I'd like to take a moment to shine spotlight on the important work 
that those students and professionals are doing at my two-time alma 
mater, North Carolina A&T State University.
    In 2020, College of Agriculture and Environmental Sciences at N.C. 
A&T reached $23 million in annual extramural research, with much of 
that research focusing on issues affecting small farmers and under-
served communities across the state.
    Additionally, earlier this year, A&T received a grant from USDA to 
establish the Center of Excellence to Motivate and Educate for 
Achievement, dedicated to encouraging and supporting young people from 
underrepresented minority groups to pursue studies and careers in food, 
agriculture, and natural resources.
    However, despite their decades of success in supporting small and 
minority farmers and conducting cutting-edge agricultural research, A&T 
faces many of the same challenges as the institutions before us today, 
including securing matching funds from our state legislature.
    I look forward to hearing testimony from our esteemed panel of 
witnesses on that issue and others, and I thank them in advance for 
taking the time to be with us this morning.
    I hope we get to hear your thoughts on the implementation of the 
2018 Farm Bill provisions, additional areas for collaboration between 
Congress and the 1890 system, and how your institutions have been 
impacted by the COVID-19 pandemic.

    I yield back.

    The Chair. Thank you very much for your opening remarks.
    I just want to let the Committee know that in consultation 
with the Ranking Member and pursuant to Rule XI(e), I want to 
make Members of the Subcommittee aware that other Members of 
the full Committee may join us today.
    I would now like to welcome the Ranking Minority Member 
present, Mr. Thompson, for his opening statement.

 OPENING STATEMENT OF HON. GLENN THOMPSON, A REPRESENTATIVE IN 
                   CONGRESS FROM PENNSYLVANIA

    Mr. Thompson. Well good morning everyone, and thank you, 
Chair Plaskett, for convening this hearing today. Thank you, 
Congresswoman Adams, for your opening remarks and your 
leadership with these wonderful institutions of learning, and 
your leadership in leading for the support for them.
    Now, I am pleased to be celebrating such an important 
occasion, August 30, 2020. While 2020 wasn't the most banner 
year in all of our lives for different reasons, there were some 
incredible milestones to be celebrated, and that was August 30, 
marking the 130th anniversary of the enactment of the Morrill 
Act of 1890, also known as the Second Morrill Act. This law, 
which led to the establishment of our 1890 land-grant 
universities that today number 19 in total.
    When we were celebrating the 125th anniversary in 2015, the 
House Agriculture Committee was in the early stages of 
developing what is now the 2018 Farm Bill. During that time, we 
heard testimony from several university Presidents about the 
continuing contributions and successes of their institutions, 
and how Congress can continue to improve their capacity to 
provide agriculture education extension and research. I am 
proud that the 2018 Farm Bill delivered several wins for the 
1890 land-grant universities, including addressing a funding 
carryover disparity that treated 1890 extension programs 
differently than their other extension counterparts. The farm 
bill also notably established a grant program to award 
scholarships for students at 1890 land-grant institutions, a 
priority I know several on this Committee worked hard to 
deliver, including my friend and future Chairman, David Scott.
    Our nation's land-grant system, especially the 1890 land-
grant university role, will continue to play a pivotal role in 
training and educating the next generation of farmers and 
ranchers, and other agriculture professionals. Their research 
and extension mission is a critical component of American 
agriculture and is envied around the world.
    We are fortunate to have several leaders from the 1890 
land-grant universities with us today, and I look forward to a 
productive discussion.
    Thank you, Madam Chair, and I yield back.
    The Chair. Thank you, Mr. Thompson.
    I would like to acknowledge that the Ranking Member of our 
full Committee, Mr. Conaway, is also with us. Thank you for 
your leadership and for being with us through this important 
hearing.
    Once again, I want to welcome all of our witnesses, and 
thank you for being here today. I request that other Members 
submit their opening statements for the record so the witnesses 
may begin their testimony, and to ensure that there is ample 
time for questioning.
    At this time, I will introduce our first witness, Dr. 
Makola Abdullah, the 14th President of Virginia State 
University. Mr. Abdullah has served in this role since February 
2016, and he is an alumnus of Howard University and 
Northwestern University. Doctor, you have your time now for 
your opening statement. Thank you for being with us.

      STATEMENT OF MAKOLA M. ABDULLAH, Ph.D., PRESIDENT, 
       VIRGINIA STATE UNIVERSITY; CHAIR, COUNCIL OF 1890 
      UNIVERSITIES, ASSOCIATION OF PUBLIC AND LAND-GRANT 
                  UNIVERSITIES, PETERSBURG, VA

    Dr. Abdullah. Thank you very much, Chair Stacey Plaskett. 
Thank you to Ranking Member Glenn Thompson, and of course, 
thank you to Agriculture Vice Chair Alma Adams, and also 
Members of the Committee, my fellow 1890 Presidents, and other 
guests who are here today, for this opportunity to speak about 
the 1890 land-grant university system, and the very important 
role that 1890 universities play in the future of this nation.
    I am Dr. Makola Abdullah, 14th President of Virginia State, 
and the current Chair of the Association of Public and Land-
grant Universities Council of 1890 Universities. The council is 
composed of the Presidents of the 19 Black land-grant 
institutions. These institutions were born out of a time of 
racial separation and exclusion fueled by segregation and 
racial intolerance, and they were built upon the pillars of 
access, opportunity, inclusive excellence, and persistence.
    The 1890s were founded to provide equitable education for 
all students, especially Blacks and other minorities, in former 
slave-holding states, and they are distinguished from other 
institutions of higher learning, not only because of their 
commitment to teach the practical disciplines of agriculture, 
engineering, life sciences, and nutrition to minority and 
under-served populations, but because of the important 
agriculture research that they conduct on behalf of their 
state, the country, and the globe. The 1890s are also unique 
because of their mission to extend their teaching beyond the 
campus walls to the citizens of their respective states, 
especially, again, to minorities and socioeconomically 
disadvantaged people, so communities can prosper and grow.
    Nearly 4 months ago, on August 30, 2020, the United States 
Congress recognized the 130th anniversary of the signing of the 
Second Morrill Act, which created these 19 historically Black 
land-grant universities. This was not only a celebration, but 
an important reminder of the vital role that our 19 
universities continue to play today.
    Indeed, the unprecedented challenges that 2020 has 
presented us with are tied to the very foundation of the 1890 
land-grant system, and we are perfectly positioned, with your 
support, to be at the forefront of developing innovative 
solutions to those challenges.
    I stand before you today to thank you not only for this 
past support, but also for your future commitment to the growth 
and expansion of the 1890 land-grant system, a commitment 
necessary to meet the challenges we have seen unfold this year, 
and for those still yet to come tomorrow. A commitment that 
will further the economic prosperity and health of families, 
businesses, and communities that we serve, and a commitment 
that would mean your support of Federal appropriation increases 
in Fiscal Year 2021, and beyond.
    At my own institution, Virginia State University, I can 
share by example--excuse me. At my own institution, I can 
share, for example, that the proposed appropriation increases 
to our Fiscal Year 2021 budget and beyond would allow us to 
make great strides forward in agricultural research, teaching, 
and outreach in the following ways.
    Our food and ag research program at Virginia State is 
funded by the 1890 Evans-Allen Act of 1977. Those Evans-Allen 
funds have led towards hundreds of scientific breakthroughs in 
the areas of plant and soil sciences, food science, and small 
ruminants that include priorities for under-served populations. 
Those Evans-Allen funds have direct impacts on citizens and 
businesses of our state every day.
    Another part of VSU's 1890 land-grant mission is its 
Virginia Cooperative Extension Program. This program brings our 
university-based research and knowledge to the homes and 
businesses of Virginia citizens, especially minorities and 
socio-disadvantaged people. This science-based nontraditional 
education strengthens our food and agricultural industry, 
enhances the health of families and businesses, and fosters 
stable communities for under-served populations.
    It is this 1890s Cooperative Extension Program that allowed 
U.S. Army veteran and stage 4 cancer survivor Rob Davis to 
transition after 30 years in the military to a successful 
career as a small, niche-crop farmer in our state. We have made 
these strides despite the 1890 land-grant system receiving only 
25.8 percent of the Evans-Allen funds authorized by the Federal 
Government, and only 18 percent of the Congressionally-
authorized 20 percent of 1890 extension program funds. 
Meanwhile, again, our 1862 land-grant partners enjoy a 
significantly larger percentage of total funding for their 
Smith-Lever Act allocation, and larger state matches for 
cooperative extension.
    I stand before you to testify that on behalf of all of the 
1890 land-grant Presidents, and we are very grateful for the 
Fiscal Year 2020 appropriations, and that we fully support 
closing the gap of funding percentage the 1890s receive for ag 
research and extension, compared to our 1862 counterparts.
    The 1890 land-grant system was founded to be an equal 
partner in providing agricultural education, research, and 
extension to the citizens of our states, and we have repeatedly 
demonstrated the impacts we make in doing so. We are perfectly 
positioned to address the unprecedented challenges that our 
communities are facing today.
    Increases in these and other related 1890 budget line items 
will play a critical role in helping to attract and retain 
instructional faculty, creative and innovative researchers and 
extension specialists, and inquisitive food and ag science 
scholars. It will also allow the 1890s to make long overdue 
upgrades to our aged 20th century infrastructure, enabling us 
to deliver 21st century programs and solutions to limited 
resource, minority, and under-served audiences.
    In addition to budget line increases, I am also asking the 
House Agriculture Committee to support the following: to 
reinstitute the 1890 USDA Task Force, ensuring the membership 
of senior decision-making agency representatives are included 
in the 2023 Farm Bill; to increase the opportunity and support 
for greater access for 1890 institutions to become an integral 
part of institutions that receive SNAP-Ed funds. This is the 
largest Federal nutrition education program that is directed at 
poor and limited resource families. Presently, fewer than----
    The Chair. Dr. Abdullah----
    Dr. Abdullah. Yes.
    The Chair. Your time has expired. If you could just wrap up 
very quickly, all of your written testimony will be taken in.
    Dr. Abdullah. Okay. Thank you. Thank you.
    I will say this in closing. I want to thank our 
Congressman, Donald McEachin, and all of you for your continued 
support and commitment to Virginia State University and the 
entire 1890 land-grant system.
    Thank you.
    [The prepared statement of Dr. Abdullah follows:]

 Prepared Statement of Makola M. Abdullah, Ph.D., President, Virginia 
 State University; Chair, Council of 1890 Universities, Association of 
           Public and Land-grant Universities, Petersburg, VA
The Next Farm Bill: The 1890 Land-Grant System
    Thank you, Chair Stacey Plaskett, Ranking Member Neal Dunn, Members 
of the Committee, my fellow 1890 Presidents and other guests appearing 
here today, for this opportunity to speak about the 1890 land-grant 
university system and the important role the 1890 universities play in 
the future of this nation. I am Dr. Makola M. Abdullah, 14th President 
of Virginia State University and current Chair of the Association of 
Public and Land-[g]rant Universities' Council of 1890 Universities.
    The Council is comprised of Presidents of the 19 black land-grant 
institutions. These institutions were born out of a time of racial 
separatism and exclusion, fueled by segregation and racial intolerance. 
They were built upon the pillars of access, opportunity, inclusive 
excellence and persistence.
    The 1890s were founded to provide equitable education for all 
citizens, especially blacks and other minorities, in former slave-
holding states. And they are distinguished from other institutions of 
higher learning not only because of their commitment to teach the 
practical disciplines of agriculture, engineering, and life sciences 
and nutrition to minority and under-served populations, but because of 
the important agricultural research they conduct on behalf of their 
state, the country and the globe. The 1890s are also unique because of 
their mission to extend their teaching beyond campus walls to the 
citizens of their respective states--especially to minorities and the 
socioeconomically disadvantaged--so communities can prosper and grow.
    Nearly 4 months ago, on August 30, 2020, the United States Congress 
recognized the 130th Anniversary of the signing of the Second Morrill 
Act, which created these 19 historically Black land-grant universities. 
This was not only a celebration, but also an important reminder of the 
vital role these 19 universities continue to play today. Indeed, the 
unprecedented challenges that 2020 has presented us with are tied to 
the very foundation of the 1890 land-grant system, and we are perfectly 
positioned, with your support, to be at the forefront of developing 
innovative solutions to them.
    How, exactly?
    To begin with, our 1890 land-grant forefathers held the belief that 
``men and women of talent and ability, regardless of their 
socioeconomic condition, can contribute to the common good through hard 
work and the opportunity to develop and prosper.'' Today, important 
dialogues have reemerged about racial equity and how to ensure all 
Americans have an equal opportunity to flourish and succeed. Those are 
precisely the issues 1890 land-grant universities have a 130 year track 
record of successfully addressing, and we look forward to your 
continued support in helping us play an important role in the 
resolution of today's equity issues.
    Additionally, our country's food supply chain, one of the most 
important sectors of the economy, was shaken to its foundation this 
year by COVID-19. While the impacts of the pandemic are still 
unfolding, it is already clear that necessary improvements need to be 
made to eliminate bottlenecks in farm labor, processing, transportation 
and logistics, as well as to address momentous shifts in consumer 
demand to protect our food and nutrition security. These improvements 
will require research, technology, and a trained workforce 
knowledgeable about agriculture, food production and safety, nutrition, 
and engineering--in other words, exactly what the 1890 land-grant 
system does best.
    Our fragile food system must also be viewed through the lens that 
2050 is only 30 years from now. By then, the world must feed two 
billion more people than it does today. According to the World Economic 
Forum, that is a 56% increase in the amount of food the world produced 
just 10 years ago. The challenge is straight-forward--today's 
agriculture cannot deliver enough food to meet that need. How we 
address this challenge--to feed more people, safely, affordably and 
responsibly--will again require research, technology, and a trained 
workforce knowledgeable about agriculture, food production and safety, 
nutrition, and engineering--in other words, as I stated earlier, 
exactly what the 1890 land-grant system does best.
    I join the other 1890 land-grant university Presidents and the 
millions of Americans who have benefited from our institutions' 
services in thanking you for your past support of the direct Federal 
appropriations we receive for our Cooperative Extension and 
agricultural research programs. These appropriations stem from Sections 
1444 and 1445 of the National Agricultural Research, Extension and 
Teaching Policy Act of 1977 (NARETPA) and constitute our most 
significant funding source. These appropriations also reflect the 
Federal-state partnership managed by the National Institute of Food and 
Agriculture (NIFA)--USDA's extramural science agency. But most 
importantly--especially to the citizens we serve--these specific 
appropriations have permitted our institutions to provide the services, 
solutions and economic successes to our states and our nation as a 
whole.
    I stand before you today to thank you not only for this past 
support, but also for your future commitment to the growth and 
expansion of the 1890 land-grant system, as well. A commitment 
necessary to meet the challenges we've seen unfold this year and for 
those still to come tomorrow. A commitment that will further the 
economic prosperity and health of the families, businesses, and 
communities we serve. And a commitment that is contingent on your 
support of Federal appropriation increases in FY 2021 and beyond.
    The impact this commitment would make on our 1890 land-grant system 
is immense. But the positive impacts it would make on the people we 
serve--who we all serve--is even greater.
    At my own institution, Virginia State University, I can share, for 
example, that the proposed appropriation increases to our FY 2021 
budget and beyond would allow us to make great strides forward in 
agricultural research, teaching and outreach in the following ways.
    Our food and agricultural research program at VSU is funded by the 
1890 Evans-Allen Act of 1977. Those Evans-Allen funds have led to 
hundreds of scientific breakthroughs in the areas of plant and soil 
sciences, food science, and small ruminants that include priorities for 
under-served populations. Those Evans-Allen funds have direct impacts 
on the citizens and businesses of our state . . . every day.
    Take our beloved Sally Bell's Kitchen, a family-owned Richmond 
fixture since 1924, known for its box lunches, deviled eggs and, 
perhaps most famously, its potato salad. Everyone wanted their potato 
salad. Sally Bell's knew they could grow their business if they could 
make it available in stores, but their homemade side dish just didn't 
have the shelf-life to withstand shipping to and selling from stores. 
They knew the market was there, but they had no way to get to it.
    Dr. Chyer Kim, a food scientist at VSU's Agricultural Research 
Station, researched ways to help this small business reach their goal 
to extend their product's shelf-life, while maintaining its legendary 
taste and keeping consumers safe. He landed on modified atmospheric 
packaging, or MAP, a technology that substitutes the atmospheric air 
inside a package with a protective gas mix that helps ensure a product 
will stay fresh for as long as possible. He worked with Sally Bell's 
Kitchen to transition to this method of packaging, and now, if you're 
ever in Richmond, I welcome you to stop by any number of grocery stores 
to pick up a pint.
    I am sure 3 years ago when they were working on this project, Sally 
Bell's Kitchen had no idea that selling their products outside their 
restaurant's walls would play an important role in keeping their 96 
year old business afloat during the pandemic. But it has. And Sally 
Bell's Kitchen is just one of hundreds of stories of how 1890 land-
grants like VSU leverage Evans-Allen funds to support the health and 
economic prosperity of our communities.
    Another part of VSU's tripartite 1890s land-grant mission is its 
Virginia Cooperative Extension program. This program brings our 
university-based research and knowledge to the homes and businesses of 
Virginia's citizens--especially minorities and the socioeconomically 
disadvantaged. This science-based, non-traditional education 
strengthens our food and agricultural industry, enhances the health of 
families and businesses, and fosters stable communities for under-
served populations. It is this 1890's Cooperative Extension program 
that allowed U.S. Army veteran and stage-four cancer survivor Rob Davis 
to transition after 30 years in the military to a successful career as 
a small, niche-crop farmer in our state. After working with the VSU 
Small Farm Outreach Program for a few years, Davis learned about soil 
management, important agribusiness strategies, and ways the different 
USDA agencies could assist him. Davis says he is grateful for the 
education and connections he has received from VSU's Small Farm 
Outreach Program. In fact, and I quote Mr. Davis, ``I couldn't have 
done anything without them. It's impacted my whole family.'' 
Furthermore, as a result of his experiences with VSU's Extension 
program, Davis says his three sons have now developed their own 
interests in agriculture.
    Yes, these are just two examples of the statewide impacts we at 
Virginia State University make every day with your past support. And 
we've made these strides, despite the 1890 land-grant system receiving 
only 25.8% of the Evans-Allen Program funds authorized by the Federal 
Government. While we're grateful for FY 2020 appropriations of $67 
million for agricultural research, we are reminded that that 25.8% 
falls significantly short of the 30% of the total Hatch Program funds 
authorized by the Federal Government to our 1862 land-grant partners, 
who also benefit from larger state matches.
    Similarly, we are grateful for the FY 2020 budget appropriation of 
$57 million to the 1890 land-grant system for its Cooperative Extension 
program. But we are also reminded that this appropriation represents 
only 18% of the Congressional authorized 20% for 1890 Extension Program 
funds. Meanwhile, our 1862 land-grant partners enjoy a significantly 
larger percentage of total funding per their Smith-Lever Act allocation 
and larger state matches for Cooperative Extension.
    Twenty-five-point-eight percent versus 30%. Eighteen percent versus 
20%. I stand before you today to testify that on behalf of all of the 
1890 land-grant Presidents, I fully support a close in the gap of the 
funding percentage the 1890s receive for agricultural research and 
Extension compared to our 1862 counterparts. Closing the 4.2 percentage 
gap for agricultural research will bring our appropriation levels from 
$67 million to $77 million. Closing the 2% gap for 1890 Cooperative 
Extension programming will bring our appropriation levels from $57 
million to $63 million.
    The 1890 land-grant system was founded to be an equal partner in 
providing agricultural education, research and Extension to the 
citizens of our states, and we have repeatedly demonstrated the impacts 
we make in doing so. We are also perfectly positioned to address the 
unprecedented challenges our communities are facing today. Therefore, I 
and my fellow 1890 land-grant university Presidents, fully support the 
proposed close to this funding gap.
    Additionally, on behalf of my fellow 1890 land-grant university 
Presidents, I fully support the following budget line item increases.

  1.  Increase FY 2020 appropriation for the 1890 Capacity Building 
            Grants from $23,009,800 to $30 million.

  2.  Increase FY 2020 appropriation for the 1890s Facilities Grants 
            Program from $20.5 million to $30 million.

  3.  Increase FY 2020 appropriation for the 1890s Facilities Grants 
            Program from $20.5 million to $30 million.*
---------------------------------------------------------------------------
    * Editor's note: the statement has been reproduced as submitted to 
the Committee. The duplication in the content of items 2 and 3 reflects 
the testimony as it was submitted.

  4.  Increase FY 2020 appropriation for three 1890s Centers of 
            Excellence at $10 million annually to six centers at $10 
---------------------------------------------------------------------------
            million each for a total of $60 million.

  5.  Increase the discretionary appropriation for Scholarships at the 
            1890 institutions for students who intend to pursue a 
            career in the food and agricultural sciences for funds over 
            FYs 2020 through 2023 to an additional $40 million in 
            discretionary funds.

  6.  And additionally, we would like to see a designation for funds 
            for the 1890 institutions to address the healthcare 
            infrastructure COVID-19 has demonstrated we do not have in 
            place to care for our students on campus, as well the 
            digital infrastructure we need to deliver assistance to 
            individuals, families and communities during and after the 
            pandemic.

    Increases to these six 1890 budget line items will play a critical 
role in helping to attract and retain instructional faculty; creative 
and innovative researchers and extension specialists; and inquisitive 
food and agri-science scholars. They will also allow the 1890s to make 
long overdue upgrades to our aged 20th-century infrastructure, enabling 
us to deliver 21st-century programs and solutions to limited-resource, 
minority and under-served audiences.
    In addition to these budget line increases, I am also asking the 
House Agriculture Committee to support the following:

  1.  Reinstitute the 1890/USDA Task Force, ensure membership of senior 
            decision-making agency representatives, and include 
            statutorily in the 2023 Farm Bill.

  2.  Increase the opportunity and support for greater access for 1890 
            institutions to become an integral part of institutions 
            that receive SNAP-Ed funds. This is the largest Federal 
            nutrition education program that is targeted to poor and 
            limited resource families. Presently, fewer than five 1890 
            institutions receive SNAP-Ed funds from respective states. 
            Greater access to these funds will enhance our capacity to 
            serve the under-served, hard-to-reach and under-represented 
            communities.

  3.  Examine the formula for distributing funds in the Expanded Food 
            and Nutrition Education Program (EFNEP) to insure equitable 
            funding to 1890 institutions.

  4.  The concepts put forward in the ``The Justice for Black Farmers 
            Act'' introduced by Senators Booker, Warren, and 
            Gillibrand.

  5.  Remove the ``matching'' requirement from all USDA competitive 
            programs for all minority institutions.

  6.  Encourage the states to invest in their 1890 institutions, via at 
            minimum, the support of the required 1:1 match for 1890 
            Federal capacity funds.

  7.  Establish a Post Doctorial Program for the 1890/Land-Grant/HBCU 
            universities with emphasis on Academics, Research and 
            Extension/Community Development. And require each post Doc 
            to specialize in at least two of the three major component 
            areas. This would give students at minority institutions an 
            opportunity to gain hands-on professional experience in two 
            of these three areas, thereby making them more competitive 
            with 1862 and private universities who routinely receive 
            such exposure prior to taking full employment.

  8.  Reestablish the Workforce Diversity Summer Intern Program for 
            College Students as a viable means for enhancing hands-on 
            professional experience. This program was previously funded 
            by USDA, but now could be funded between Federal and state 
            governments and private industries. Students throughout the 
            university could be encourage/required to spend at least 
            one summer with a Federal agency and one with private 
            industry. If a student is given the opportunity to spend 
            more than one summer with an employer, then an offer of 
            full employment would be expected.

    In closing, I thank you for your continued commitment and support 
of Virginia State University and to the entire 1890 land-grant system. 
I assure you that an investment in the 1890s is an investment in our 
nation's future.

    The Chair. Thank you so much, Dr. Abdullah.
    Next, I will recognize Dr. Paul Jones. Dr. Jones is 
currently serving as the 10th President of Ford Valley State 
University. Dr. Jones has served in this position since 
December 2015. He is a graduate of Utah State University and 
Colorado State University. Thank you so much for being with us, 
and welcome.

      STATEMENT OF PAUL A. JONES, Ph.D., PRESIDENT, FORT 
  VALLEY STATE UNIVERSITY; FIRST VICE CHAIR, COUNCIL OF 1890 
      UNIVERSITIES, ASSOCIATION OF PUBLIC AND LAND-GRANT 
                 UNIVERSITIES, FORT VALLEY, GA

    Dr. Jones. Thank you, Chair Plaskett, Ranking Member 
Thompson, and Members of the House Committee on Agriculture. 
Thank you for the opportunity to address you today.
    Again, I am Paul Jones, and I serve as the 10th President 
of Fort Valley State, which is located in Middle Georgia.
    As you can imagine, like every part of our ecosystem, 
COVID-19 has presented all of us with tremendous challenges. 
Yet, it has also provided opportunities for us to refocus our 
institutions as we move forward. After abruptly moving online 
in March and completing our online in the summer, we safely 
moved to a traditional in-person environment. The university 
put in extraordinary safety measures to ensure a safe return 
for staff, faculty, and students. Despite the many challenges 
we faced, not only were we able to keep our campus safe during 
the fall, the university--safely when reopened, experienced its 
largest enrollment since fall of 2012. A major part of that 
enrollment success, I should say, is directly attributed to 
your passing of the 2018 Farm Bill. The passing of this bill 
not only supported much needed agricultural scholarship funding 
for students, but it helped to support three new 1890 Centers 
of Excellence carryover provision, and an important provision 
that monitors the 1890 matching funds to ensure all of our 18 
states are meeting this one-to-one match obligation for the 
entire 1890 land-grant system.
    Another important factor of enrollment stability and 
success was your passing of the Coronavirus Aid, Relief, and 
Economic Security Act, and the CARES Act relief funds for HBCUs 
and minority serving institutions, and colleges and 
universities serving low-income students. This support has 
enabled the university to significantly enhance our technology 
capacity, purchase valuable personal protective equipment and 
increase our testing capacity, eliminate significant deficits 
due to the refunds mid-year, and to mitigate large-scale 
employee reductions or layoffs.
    The 1890 land-grant system is a tremendous asset to higher 
education and has, we believe, much greater capacity to help 
solve the many problems of our country and beyond. The pandemic 
of the virus and the social challenges our nation has faced put 
a much greater spotlight on the acute health, economic, and 
other disparities we are facing as a country today. These 
disparities are particularly true for the students we serve, 
which represent 80 percent of Pell Grant recipients.
    I believe greater focus and support of the 1890s system 
will enable us to play a broader role in solving problems 
throughout the communities we all serve, particularly in under-
served communities and the rural communities. Support for our 
research and extension agenda would aid in building greater 
capacity. For example, we are in the process of establishing a 
Center for Agricultural Innovation and Entrepreneurship, which 
is vitally important to helping us build that infrastructure 
and to provide researchers and faculty and business owners with 
the opportunity to move forward in this entrepreneurship 
venture. This center is the key on our agenda, and we are 
thankful to the funding that we have received.
    The hallmark of our rigorous research programs is 
collaboration. Whether it is the work with global teams, the 65 
scientists and 30 research institutions which has decoded and 
sequenced the pearl millet genome, revealing critical heat 
sculpting strategies in this grain crop, or the specialty crops 
which have demonstrated that Scutellaria has anti-cancer 
properties and can reduce the tumor size in a rat brain, or our 
collaborative work with the University of Georgia or other 
several USDA Agricultural Research Service labs to characterize 
the whitefly infestation in fruit and vegetable crops in the 
Southeast United States. All of these are important in our 
collaborative efforts, and it is our pathway forward.
    We hope that we have continued support. We look forward to 
continue to support to improve the infrastructure, the 
broadband infrastructure, and the critical mission that we 
serve as 1890 institutions to support the rural communities and 
under-served communities.
    Again, I want to pause there, rather, because of time. I am 
grateful for this opportunity to address you today, and I look 
forward to your questions.
    Thank you very much.
    [The prepared statement of Dr. Jones follows:]

  Prepared Statement of Paul A. Jones, Ph.D., President, Fort Valley 
   State University; First Vice Chair, Council of 1890 Universities, 
   Association of Public and Land-grant Universities, Fort Valley, GA
Introduction
    Chair Plaskett, Ranking Member Dunn, and Members of the House 
Committee on Agriculture thank you for this opportunity to address you 
today. I am Paul Jones, and I have the privilege of serving as the 
tenth President of Fort Valley State University (FVSU) in middle 
Georgia.
    I am honored to speak to you today, along with my distinguished 
colleagues, to testify in support of the 1890 Land-Grant Institutions. 
As you know, the land-grant system was established as part of the 
Second Morrill Act of 1890. Celebrating our 125th Anniversary this 
year, Fort Valley State University was established in 1895.
    The FVSU College of Agriculture, Family Sciences and Technology 
offers undergraduate and graduate programs in Animal Sciences, 
Agriculture Economics, Agriculture Education, Biotechnology, 
Engineering Technology, Food and Nutrition, Electronics Technology, 
Infant and Child Development, Plant Science, Public Health, and 
Veterinarian Technology.
FVSU's Response to COVID
    During the fall 2020 semester, the University System of Georgia, 
reopened each of its campuses in an in-person modality. Despite the 
enormous challenges of the pandemic and state budget reductions, the 
University reopened in the fall and experienced its largest enrollment 
since fall 2012, which increased nearly 8% over last year. Part of the 
increase is directly attributed to the new 1890 Agriculture 
Scholarships from the 2018 Farm Bill. The fall semester saw more than 
75 new agriculture scholars join the University.
    In addition, thanks to Congressional support of the CARES Act 
funding and The Coronavirus Aid, Relief, and Economic Security Act and 
the CARES Act Relief Funds to HBCUs, Minority Serving Institutions, and 
Colleges and Universities Serving Low-Income Students, we are able to 
significantly enhance our technology capacity, purchase valuable 
personal protection equipment and testing capacity, eliminate 
significant auxiliary deficits due to student refunds, and mitigate 
large scale employee reductions.
Land-Grant Function
    The 1890 land-grant institutions system and the U.S. Department of 
Agriculture have a monumental responsibility of addressing global food 
security through rigorous research, extension, and educational 
programs. Technological advances applicable in agriculture, natural 
resource utilization and conservation, and food production will enable 
us to meet this daunting challenge, provided there is an appropriate 
allocation of resources to enhance infrastructure at agricultural 
universities. Topics such as precision agriculture, artificial 
intelligence, big data, and gene editing have become a part of the day-
to-day conversation within the agricultural research community.
    FVSU has robust research and educational programs in 
bioinformatics, precision agriculture, renewable energies, genome 
editing, and other technologies. We are ideally positioned to play a 
lead role in the conceived 1890 Center of Excellence in Emerging 
Technologies.
    FVSU has recently developed its 2020-2025 Strategic Plan that 
emphasizes Innovation, Entrepreneurship, and Economic Development. To 
this end, we have created the Office of Economic Development and Land-
Grant Affairs. In addition to critical thinking, communication, 
teamwork, and leadership capabilities, entrepreneurship is an essential 
skill for college graduates to compete in today's ever-evolving global 
economy.
    We are in the process of establishing the FVSU Center for 
Agricultural Innovation and Entrepreneurship to assist clients in 
starting and sustaining agribusinesses, assist faculty and researchers 
with innovation, technology transfer, and commercialization efforts, 
and encourage and facilitate student activities resulting in 
entrepreneurship ventures. The Center will play the much needed 
intermediary functions in economically depressed communities to connect 
people to information and resources that will transform ideas into 
businesses, resulting in local and regional economic development.
Research and Innovation
    It is critical that research programs pursue ``rigor'' in order for 
research findings to be reliable. The hallmark of FVSU's rigorous 
research programs is collaboration.
    For example, a global team of 65 scientists from 30 research 
institutions, including Fort Valley State University (FVSU), has 
decoded and sequenced the pearl millet genome, revealing critical heat 
coping strategies in this grain crop. This discovery, published in the 
journal Nature Biotechnology, will also help researchers better 
understand climate adaptation in other important cereal crops and 
develop strategies to enhance crop production despite changes in global 
temperatures.
    FVSU is considered a leader in specialty crop research, and current 
projects at the institution focus on the medicinal and nutraceutical 
properties of Scutellaria, stevia, bacopa, and other plants. Through 
our collaborative work, we demonstrated that Scutellaria has anti-
cancer properties; its administration can reduce the tumor size in the 
rat brain.
    FVSU's nanotechnology lab is extracting cellulose nanocrystals and 
micro fibrillated cellulose, and the derived aerogel and hydrogel have 
applications in agriculture water conservation, environmental safety, 
biomedicine, electronics, insulation, packaging, and textiles, to name 
a few.
    FVSU has established research collaborations with several USDA-
Agricultural Research Services' (ARS) Labs recently. FVSU, in 
partnership with the University of Georgia and ARS, is working on a 
research project to characterize whitefly infestations in fruit and 
vegetable crops in the southeastern U.S. and provide short- and long-
term integrated pest management and molecular tools that can be used to 
mitigate the infestations.
    We are in the process of establishing similar partnerships with the 
USDA-ARS Peanut Lab in Dawson, Georgia, on a project to address the 
aflatoxin problem in peanut kernels, and with the ARS Lab in Byron, 
Georgia to work on a pecan project. FVSU has recently established the 
Center for Ultrastructure Research that is expected to expand these 
collaborations further.
    The Georgia Small Ruminant Research and Extension Center at FVSU is 
the largest facility of its kind east of the Mississippi River and is 
recognized as a national leader in goat research. FVSU continues to be 
the lead institution for the American Consortium for Small Ruminant 
Parasite Control, a global organization with numerous collaborators 
from 1862 and 1890 universities, USDA-ARS stations, international 
institutions, and industry groups dedicated to finding non-chemical 
methods of controlling gastrointestinal parasites in sheep and goats. 
Because of this group's work, farmers have greatly improved the 
sustainability of their sheep and goat production systems by reducing 
synthetic drug usage by up to 90 percent, which saves approximately 
$150-$200 per 100 animals per year.
    FVSU researchers, in collaboration with USDA-ARS scientists, are 
using genome-editing techniques to improve reproductive efficiency in 
sheep and goats. Gene editing allows researchers, for instance, to 
eliminate an undesirable trait by precisely knocking out the gene 
without introducing a foreign gene into the native genome.
    FVSU researchers have demonstrated the effectiveness of non-thermal 
technology for the destruction of E. coli on meat and continue to 
evaluate cost-effective pathogen reduction strategies and conduct food 
safety training for small and very small meat processors in Georgia. 
FVSU has also expanded its custom meat processing services beyond its 
traditional service area and clientele to help the state meet the red 
meat processing demand that has been negatively impacted by the 
pandemic.
Cooperative Extension
    To provide support to beginning farmers and ranchers in agriculture 
and to improve outreach and communication to military veterans about 
farming and ranching opportunities, FVSU's Cooperative Extension 
Program has been conducting quarterly workshops impacting Georgia's 
Strike force counties that have engaged hundreds of participants in 
USDA programs, GAP/GHP certification, organic and sustainable food 
production, conservation and assistance available from USDA and local 
farm support agencies.
    FVSU has an 18 acre organic farming system where farmers are 
exposed to an organic tree, shrub, vine fruit growing, organic barrel 
gardening, organic small plot gardening, organic hoop house gardening, 
and organic animal production.
    FVSU is collaborating with the University of Georgia, USDA Rural 
Development, USDA Forest Service, and other agencies to address 
minority forest landowners' not receiving any technical assistance or 
information that will assist them in their operation of maintaining and 
managing their forestlands to maximize their operation's income. This 
program's impact is an increase in the overall knowledge of 350 
landowners in the following topic areas: wills and estate planning, 
timber management and marketing, USDA cost-sharing programs, wildlife 
management, and land management, including surveying.
    Our Mobile Information Technology Center educates communities on 
recordkeeping and accessing USDA information on the web. It is also 
used to assist in providing services to veterans and others who need to 
utilize technology to access government services via the web. 
Additionally, working with the State Health Insurance Assistance 
Program and the Senior Medicare Patrol, we have saved Georgians more 
than $5\1/2\ million.
    Life on the Farm is a live animal mobile exhibition providing 
firsthand knowledge of farm life and how it affects each person daily. 
The Life on the Farm educational program is presented throughout the 
state at schools, daycare centers, public libraries, churches, town 
festivals, fairgrounds, and other public meeting places.
    The FVSU 4-H program has engaged thousands of youth in healthy 
living activities resulting in improvement of dietary choices, 
improvement of attitudes toward healthful foods, increased willingness 
to try new nutritional foods, increased understanding of the elements 
of sound nutrition, and daily caloric need versus physical exercise, 
and increased participation by the family in eating together.
    Fort Valley State University has been able to educate numerous low 
to moderate-income families on Energy Audits and distribute energy-
related publications to hundreds of Georgians through its Project 
GREEN, which stands for Georgia Residential Energy Efficiency Network.
Future Congressional Support
    A significant issue of concern to all public institutions receiving 
support for food, agriculture, and natural resource research is aging 
infrastructure and the lack of funding for maintaining facilities. A 
recent APLU-sponsored Gordian study revealed some alarming data 
indicating a severe backlog of deferred maintenance, and the report 
estimated the cost to be in excess of $11.5 billion. Funding for 
improving infrastructure suitable for 21st Century science that 
addresses emerging issues in agriculture and food production is 
essential.
    Emerging technologies warrant institutions to establish suitable 
research infrastructure and make adjustments to their outreach and 
educational programming to effectively train the present and future 
generations of agriculture and the farming community. There is an 
imperative and urgent need for institutions to build the capacity to 
handle massive volumes of data and at the speed and frequency with 
which they are being collected.
    This is particularly critical for smaller land-grant institutions 
charged with a unique mission of addressing the needs of 
underrepresented communities, as well as of producers and landowners 
with limited access to technology and resources. In this context, rural 
broadband access will have to be our top priority to revitalize rural 
and economically depressed communities throughout the nation.
    I am grateful for this opportunity to address the House Agriculture 
Committee today. On behalf of the dedicated faculty, staff, and 
students at FVSU and throughout the 1890s System, I thank you for your 
continuous support of our institutions and agriculture.

    The Chair. Thank you so much. I really appreciate your 
testimony.
    Our third witness is Dr. Felecia Nave, the President of 
Alcorn State University. Dr. Nave has served in this role since 
July 2019. She received her undergraduate degree from Alcorn 
State, and she is also an alum of the University of Toledo.
    Thank you so much for being with us this morning.

      STATEMENT OF FELECIA M. NAVE, Ph.D., PRESIDENT AND 
         INSTITUTIONAL EXECUTIVE OFFICER, ALCORN STATE 
                     UNIVERSITY, LORMAN, MS

    Dr. Nave. Thank you, Chair Plaskett, Ranking Member 
Thompson, and Members of the House Committee on Agriculture for 
the opportunity to provide testimony today. I also want to 
extend a thank you to Congresswoman Alma Adams for your 
continued support of the HBCU community and advocating for 
legislation and investments that build the capacity of our 
institutions.
    As mentioned, I am Felecia M. Nave, and I have the distinct 
pleasure of serving as the 20th President and first female of 
my alma mater, Alcorn State University. Alcorn has a long and 
rich tradition of educating students and preparing graduates 
for a lifetime of success. On behalf of our nearly 3,300 
students, more than 600 faculty and staff, and over 25,000 
alumni, again, thank you, Madam Chair, for the opportunity to 
provide comments regarding the 1890 land-grant institutions and 
130 years of building equity in agriculture, and more 
specifically, Alcorn State University.
    Alcorn State University was founded in 1871, and traces its 
heritage back to both the 1862 and 1890 Morrill Acts. Alcorn is 
unique among the 1890 institutions because it is the only HBCU 
founded with a land-grant purpose under the First Morrill Act, 
making it America's oldest public historically Black land-grant 
institution. Also, Alcorn is Mississippi's second oldest state-
supported institution.
    Alcorn's mission is framed around helping students overcome 
the challenges before them. We attract a racially and 
ethnically diverse student body that currently represents 36 
states and seven countries, as well as students from varied 
socioeconomic backgrounds, with nearly 30 percent of first 
generation and over 70 percent of Pell Grant eligible students. 
Alcorn has demonstrated its resilience and commitment to 
providing affordable and equitable educational opportunities.
    As is the case with many professions, equity is a topic 
that continues to present a number of opportunities and 
challenges in agriculture. As urban centers become more 
exciting for today's college students, we must work harder to 
recruit them to rural areas of the country. It can be difficult 
for students to choose to major in ag-related fields if they 
have not participated in 4-H club or have not been impacted or 
affected by extension programming in their local community.
    Having diversity in the profession is not only a positive 
for our students, but also for the agricultural workforce. Our 
students bring their diverse perspectives and experiences to 
the workforce, which may often be overlooked if they are not 
present. Also, this diversity provides for economic mobility 
for future generations who historically have been 
disadvantaged.
    At Alcorn, our scholarships have been helpful in attracting 
students to ag majors, and dozens of them have done very well, 
achieving respectable roles at the national and state levels. 
However, we must do a better job at tracking the workforce 
outcomes for these students.
    Despite the current challenges presented by the COVID-19 
virus, our faculty, staff, and extension agents have continued 
to find innovative ways to support students, the community, and 
farmers who lack the necessary resources to deal with the 
pandemic. Specifically, our extension services have provided 
programming on healthy eating habits for children, and 
programming for parents related to helping them talk to their 
children about COVID-19.
    Yet, with our limited resources, we continue to do more 
with less in order to fill the widening gaps in the areas of 
health disparities, food insecurities, and workforce 
development. However, as this pandemic continues to ravage our 
country, gains that many in this room have fought for 
generations are threatened. We have yet to fully focus on the 
residual impact of COVID-19 and think about not just those 
obvious impacts, but the underlying strain as well.
    The 1890s are very grateful for the funding provided to 
support scholarships for students interested in pursuing 
careers in agriculture, as well as the Centers of Excellence, 
of which Alcorn participates in two. The future of American 
agriculture, farming, and ranching rests in the future of its 
1890 land-grants.
    To understand this statement, one must look back and 
reflect on what we have done to see a vision for what tomorrow 
can look like. As I alluded to earlier, equity and impact are 
central to the conversation around the future of 1890 land-
grant institutions. As many of you know, whether an institution 
is an 1862 or 1890 land-grant, the expectation is that high 
quality academic programs and relevant extension programs are 
available to support the citizenry.
    Again, thank you for the opportunity to provide testimony. 
Thank you to your staff and my staff for helping prepare for 
today's event.
    [The prepared statement of Dr. Nave follows:]

      Prepared Statement of Felecia M. Nave, Ph.D., President and 
  Institutional Executive Officer, Alcorn State University, Lorman, MS
    Thank you, Chair Stacey Plaskett, Ranking Member Neal Dunn, and 
Members of the House Committee for the opportunity to enter this 
written statement for the record.
    On behalf of our nearly 3,300 students, more than 600 faculty and 
staff, and over 25,000 alumni thank you, Madame Chairwoman, for the 
opportunity to provide comments regarding 1890 Land-Grant 
Institutions--130 Years of Building Equity in Agriculture.
    From the ashes of the Civil War, Alcorn State University was 
founded in 1871 and traces its heritage back to both the 1862 and 1890 
Morrill Acts. Alcorn is unique among the 1890 institutions because it 
is the only HBCU founded with a land-grant purpose after the First 
Morrill Act, making it America's oldest public historically Black land-
grant institution. Also, Alcorn is Mississippi's second oldest state-
supported university.
    Our founding leadership included this nation's first Black senator, 
Hiram Rhodes Revels and our students have followed his lead, pioneering 
new paths in academics, agriculture, athletics, civil rights, 
government, medicine and other domains--Pulitzer Prize-winning author 
Alex Haley, Academy Award nominee actor Michael Clarke Duncan, Civil-
Rights icon Medgar Wiley Evers and his wife Myrlie Evers-Williams, and 
NFL legend Steve McNair stand as just five distinguished alumni who 
dared to challenge the odds.
    Alcorn's mission is framed around helping students overcome the 
challenges before them. We attract a racially and ethnically diverse 
student body that currently represents 36 states and seven countries as 
well as students from varied socioeconomic backgrounds, with nearly 30 
percent first generation and over 70 percent Pell Grant eligible 
students. For nearly 150 years, Alcorn has demonstrated its resilience 
and commitment to providing affordable and equitable educational 
opportunities. It is because of this long tradition of success, 1890's, 
such as Alcorn, continue to serve as an answer to the nation's 
agricultural workforce needs of the future.
    Alcorn State University serves as the lead institution for the 
federally funded Socially Disadvantaged Farmers and Ranchers Policy 
Research Center, which was established by the 2014 Farm Bill. The 
Center collaborates with other 1862 and 1890 land-grant universities as 
well as private non-governmental organizations on research proposals, 
policy development, and funding to implement actionable items for the 
success of socially disadvantaged farmers and ranchers.
    Despite the current challenges presented by the COVID-19 virus, our 
faculty, staff, and extension agents have continued to find innovative 
ways to support students, the community and farmers who lack the 
necessary resources to deal with a pandemic. COVID-19 has further 
exposed the funding inequities experienced by HBCUs and communities of 
color. Yet, with our limited resources we continue to do more with less 
in order to fill the widening gaps in the areas of health disparities, 
food insecurities, and workforce development.
    Agriculture, as you are aware, is critical to Mississippi's and 
America's food and economic security. Mississippi agriculture, 
representing $7.45 billion is the top industry in the state, directly 
and indirectly employing approximately 29% of the state's workforce. 
The strength of Mississippi's agriculture is due, in large part, to the 
strength of the state's two Land-Grant universities--of which Alcorn is 
the oldest. Through the academic program offerings, research and 
extension work, the output and efficiency of agriculture in Mississippi 
continues to improve.
    Alcorn State University continues to contribute to the workforce 
development, cutting-edge research, and outreach efforts in innovative 
ways. For example, Dr. Keerthi Mandyam's, assistant professor, is 
researching in the area of microbiomes of energy grass. Her results 
have led to the development of 1,000+ fungal culture collection with 
hundreds of fungal endophytes with favorable attributes in enhancing 
plant productivity and/or soil health.
    Assistant professor Dr. Ananda Nanjundaswamy's research focuses on 
addressing variable yeast ethanol production and the development of 
efficient conversion rates of yeast transcriptomics under ethanol 
fermentation from different substrates and fermentation strategies.
    Dr. Jacqueline McComb, Director of the Mississippi River Research 
Center, received investigates the use of novel sensor technology in 
Mississippi to aide in enhancing nutrient use efficiency and increased 
crop production for limited resource farmers as well as to improve 
environmental quality.
    Alcorn's Extension delivers research-based information and 
resources through community based programs that improve the quality of 
life for Mississippi's small and limited resource farmers, ranchers, 
rural communities and under-served audiences through education and 
outreach. This past year, over 134, 600 individuals across the state 
have participated in our programs.
    Alcorn's Extension Program is also home to a unique program that 
helps small and disadvantaged farmers gain access to capital and 
technical assistance who could not otherwise attain credit from 
traditional financial credit sources. The Small Farm Loan Program 
assists Mississippi's small farmers who endeavor to start new farm 
operations or sustain existing farm operations.
    Building on our history of daring bravery, Alcorn today stands as a 
bright beacon of opportunity, shining forth with a future focused on 
sending out proud graduates into the world. However, in order to 
continue this rich tradition of producing top-notch graduates in 
agriculture our nation must continue to invest in 1890 institutions.
    The 1890s are very grateful for the funding provided to support 
scholarships for students interested in pursuing careers in Agriculture 
and agriculture related fields. Alcorn State University received 
$750,000 from USDA Scholars program, which supported 75 high-achieving 
scholars of color, including a 2020 Gates Scholar. Additionally, the 
support provided to establish the three Centers of Excellence, of which 
Alcorn partners in two of the Centers, supports innovative research and 
programming at our institutions. These are just two examples of 
programs that should be continued and scaled through increased funding 
and support.
    The future of American agriculture, farming, and ranching rests in 
the future of its 1890 land-grants. To understand this statement, one 
must look back and reflect on what we have done to see a vision for 
what tomorrow will look like. Always on the cutting edge of innovation 
and progress in agriculture, HBCU land-grants have been at the 
forefront. Without the work of Dr. George Washington Carver at Tuskegee 
University, the various colors of clothing we all have on today would 
not be visible. However, there is an even more important role for 
1890s. Artificial Intelligence, Drones and Vertical Farming are only a 
few of the emerging fields in sustainable agriculture that 1890 
students and researchers are capable and prepared to help strengthen 
the nation's agricultural landscape. In order to remain competitive, 
facilities at 1890 institutions must remain on par with 1862 
institutions if expectations and outcomes are to remain on par.
    As alluded to earlier, equity and impact are central to the 
conversation around the future of 1890 land-grant institutions. As many 
of you know, whether an institution is an 1862 or 1890 land-grant, the 
expectation is that high quality academic programs and relevant 
extension programs are available to support the citizenry of our state 
and nation. We must address inequities in ways which more strongly 
support the intended outcomes of our programs and to ensure that we 
have representation of color at the appropriate levels in the 
agricultural community[.]

    The Chair. Thank you so much for your testimony, Dr. Nave.
    We will now proceed to hearing--let me see. That is all the 
testimony for this time. Thank you all.
    At this time, Members will be recognized for questions in 
order of seniority, alternating between majority and minority 
Members. You will be recognized for 5 minutes each in order to 
allow us to get in as many questions as possible. Please keep 
your microphones muted until you are recognized in order to 
minimize background noise.
    I first wanted to ask Mr. Conaway, do you have any 
questions that you would like to ask at this time? I will defer 
to you, sir.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well, thank you, Madam Chair. No, I don't. I 
just want to thank our witnesses on their behalf, as well as 
all of the schools that they represent across the entire 
spectrum of 1890 schools for the great work that they are 
doing, and I have no questions and I yield back.
    Thank you, ma'am.
    The Chair. Thank you very much, sir.
    I will now open up for my own questions at this time.
    I want to thank the witnesses for their testimony, and this 
topic is a family affair for me. As some of the Members on the 
Committee may know, one of my sons attended the University of 
Arkansas at Pine Bluff, is a graduate from there, and on his 
father's side, he is the third generation in this family to 
have attended that institution.
    Now, when this Committee last held a hearing on the 1890s 
system, we focused on recruitment efforts and how to bring more 
young people into agriculture. I want to explore that topic a 
little bit more.
    This summer, the Board of Directors of the University of 
the Virgin Islands in my district, also a land-grant 
institution, unanimously voted to establish a School of 
Agriculture. I believe this program will be incredibly valuable 
for our local students and local farmers who already work with 
the university on research and extension issues, and maybe even 
to bring in students from other areas who would not have 
thought to attend.
    From your perspective, how can we--and this is open to any 
of our witnesses. How can we work to encourage students to 
enroll in a new School of Agriculture? For the Virgin Islands, 
of course, that would be a unique experience, dealing with 
agriculture in a Caribbean and tropical climate. What types of 
recruitment efforts have you found to be most effective, and 
how can we expand those to bring more young people into this 
industry through our land-grant universities, and how will the 
establishment of a formal ag education program support other 
aspects of the university's research and extension efforts with 
local farmers and the community?
    Dr. Abdullah. Thank you so much for your question, Madam 
Chair.
    First, I want to acknowledge the President of UAPB 
(University of Arkansas at Pine Bluff), Dr. Laurence Alexander, 
for his wonderful work. I am sure you want him to get 
acknowledged for his family connection to you.
    We have an agricultural education program at Virginia State 
University. We are very keen on recruiting young people into 
careers in agriculture, because we think it is so critically 
important.
    If I am being honest, I think one of the challenges is that 
in our country now with so many who don't grow up in rural 
environments, that we have to continually educate them to help 
them understand how important our food and agriculture system 
is in our country, and how they can play an important 
difference. And also, how diverse and broad the opportunities 
are that exist in food and agriculture. Whether you are working 
on the business processing side, or working on the food side, 
that there are wonderful and incredible careers that exist in 
food and agriculture.
    In that vein, Representative David Scott, of course, who 
will be chair, has really shown a strong level of support for 
our institutions by helping to establish the 1890 Scholars 
Program. That Scholars Program, we believe, goes a long way 
towards really letting young people know that not only do we 
have fantastic opportunities for them to come to school, but we 
also have financial resources to really attract them, to get 
them excited to go into the careers that you believe are the 
careers of the 21st century.
    I really appreciate you asking that question. I believe 
that our students, our undergraduate students in particular, 
are really the future of our land-grant system. They are the 
future researchers, the future extension specialists, and 
making sure that we have strong and vibrant education programs 
is going to pay great dividends down the road.
    Dr. Nave. And I would just like to add, too, thank you, 
Congresswoman Plaskett, for that question.
    In addition to scholarship, it is also about pipeline 
development. The continued support of our extension efforts 
through 4-H and the like, ag discovery programs, to educate 
students about the many career opportunities in ag, and making 
sure that our programs are providing more, a much broader scope 
of the career options in ag, and that the programs are 
transitioning to some of the more sexy areas of ag, such as 
drone technology, AI, because all of those career fields, 
opportunities are available to students. They just may not be 
aware. So, in addition to scholarships, it is about program 
development, pipeline development, and making sure that they 
have access to internships and cooperative experiences so they 
have a greater, more in-depth understanding of what their 
career choice is all about.
    The Chair. Thank you.
    The other issue that I think is very important, and that 
other Members on the Committee have also been discussing, is 
what my university, the University of the Virgin Islands, which 
as a historically Black university, supports local students in 
rural communities with the focus on socially disadvantaged 
communities. They have struggled in the past to get matching 
fund waivers from NIFA following natural disasters. Like many 
1890 institutions, they often fall short of receiving the one-
to-one matching fund requirements from local legislatures, and 
which oftentimes, do not have funding to be able to do that.
    Recognizing that this is primarily a state and local issue, 
how does this funding shortfall impact schools within your 
system, or does it? Have you seen that happen? How can we work 
with our state partners to best address the matching fund issue 
to ensure that our students are supported and equity is 
maintained between institutions?
    Dr. Jones. I will be glad to address that, Congresswoman 
Plaskett, initially and allow my colleagues to address it 
further.
    In the State of Georgia, we are very fortunate to have the 
one-to-one match. That has not always been the case, but I can 
tell you there is a significant difference in our ability to 
serve our community, and the way in which we can serve our 
community when you have the one-to-one match there and you are 
not returning resources, or requesting a waiver.
    I would say that, I think it is critically important, the 
part of the provision that is in the new farm bill that really 
calls on USDA to report those states so at least there is 
information that is shared widely with Congress for those 
states that are not matching the funds.
    As I mentioned earlier in my testimony, the 1890 system has 
tremendous capacity, and when you are not receiving minimally 
the one-to-one match, it really shortchanges our communities. 
And so, I think this is vitally important that we address this 
and Congress does take a look at what is happening, because I 
believe that there are several states that are still not 
matching at the one-to-one level.
    The Chair. Thank you.
    I am very much out of time, so I would now invite Mr. 
Thompson for your 5 minutes.
    Mr. Thompson. Madam Chair, thank you so much, and thank you 
to each one of our witnesses for being on the panel today, but 
more importantly, for your leadership at your respective 
institutions of learning. It is greatly appreciated. I really 
appreciate you sharing your testimony.
    I mentioned in my opening statement the wins that we were 
able to secure in the 2018 Farm Bill, and I know my friends on 
the Appropriations Committee have been committed to getting the 
land-grant system, especially the 1890 land-grants, additional 
resources.
    But looking to future years, what can the House Committee 
on Agriculture do to help you continue to meet your mission to 
your students and to the agriculture industry, and quite 
frankly, to rural America, who benefits to a large degree in 
the end? And this question really is open to the entire panel, 
for anyone who would like to provide a response.
    Dr. Abdullah. Thank you, sir. Thank you very much for your 
question.
    As you just mentioned, we are very excited and thankful for 
the support that we have gotten from Congress and from the 
Federal Government, but there are some places that we believe 
that increasing resources at our institutions can increase the 
return on the investment that we have had.
    One of those ways, again, we receive about 25.8 percent of 
the funds that--excuse me. We are authorized to receive up to 
30 percent of the total Hatch funds or Evans-Allen funds, which 
currently right now we receive 25.8 percent of those funds. On 
the extension side, we are authorized to receive 20 percent of 
the extension funds that the 1862s receive, and we receive 
about 18 percent of that.
    And so, I think first--and when we look at our capacity 
funds and our ability to provide capacity for our states as 
1890 institutions, we will really look first to see what we can 
do to close that gap. Closing the gap of 4.2 percent on ag 
research would bring our appropriation levels from about $67 
million to about $77 million, and closing the two percent gap 
on the 1890 cooperative extension program would bring our 
appropriation levels from about $57 million to $63 million. I 
think that would be one of the big things that we could do to 
help increase the impact of our institutions.
    Second, and that was part of the question that came before, 
is how do we continue--we have about seven universities that 
aren't receiving the one-to-one match from the states, so 
better coordination with us and the states to see what we can 
do to help the states provide that critical resource to our 
institutions would go a long way.
    Thank you, sir.
    Mr. Thompson. Thank you. Thank you for that input.
    Either of the additional two panelists like to weigh in on 
that question?
    Dr. Nave. Thank you for the question. Great question.
    Just adding to what President Abdullah just mentioned, 
expanding or fully funding the Centers of Excellence. We have 
three centers that were funded, but having a center at each of 
the 19 institutions would go a long way.
    In our extension areas, we do great work and work well with 
our 1862 partners; however, we have counties that we are not 
able to serve because we don't have--or the counties--it is a 
systemic matter, chicken and egg--have the resources from the 
counties in order to bring in the agents from the university to 
assist. And so, being able to fully support in that area so all 
the counties that are needed, we can do a better job of 
covering those low-resource communities are two other areas 
that I would add to the support.
    And on a more long-term and broader scale, looking at 
facilities. We do well with what we have, but if we are to 
continue to expand and meet the changing and dynamic workforce 
needs of this country in the agricultural sector, being able to 
have or acquire state-of-the-art facilities or renovation of 
facilities is definitely going to be a must so that our 
students continue to receive the high-quality education to 
prepare them for the workforce.
    Mr. Thompson. Very good. Thank you.
    Dr. Jones, any thoughts regarding what the----
    Dr. Jones. Well, the two panelists did a great job, but I 
would echo the facilities support that is needed. We have aging 
facilities. I think bringing our facilities into the 21st 
century, either updating them or new facilities that would be 
very important for the growth of our institutions and for the 
support that we can provide throughout our states.
    Mr. Thompson. Very good. Well, once again, thank you to all 
three of you for your continued leadership, and the benefits 
that you bring to the students and communities.
    Madam Chair, I yield back.
    The Chair. Thank you very much, Ranking Member.
    Congresswoman Schrier, your 5 minutes.
    Ms. Schrier. Thank you so much.
    I come from the State of Washington, so this is my first 
education into 1890 land-grant universities, and I am so 
grateful for the education and to learn about what you are 
doing with research and how much food nutrition research you 
are doing, at a time when we have vacancies at the USDA when we 
need more extension researchers, I am incredibly grateful. I am 
also incredibly grateful that at a time when our food 
nutritional density and composition is changing with the 
changing climate that you are at the forefront of that.
    I just have a tangential question, and I don't even know if 
this is in the realm of what you feel comfortable speaking 
about. But I don't have a great sense of how many of your 
students go on to become farmers and ranchers. And my question 
is about this. We hear a lot about farmers of color not having 
the same access to loans, to loan forgiveness, to some of the 
financial help that other farmers get. We also know that our 
farmers are aging. A lot of them pass their farms down, but the 
farmers that I meet in my district who are young, they have a 
lot of trouble buying land. They are leasing land. They just 
get on the same foot. And I am thinking about this in terms of 
what has happened with housing in this country, and when you 
get locked out of actually owning that land, what does that 
mean for your future?
    I also just wondered if you could talk--I know it is 
tangential--if you could talk about that a little bit, if you 
could talk about if you are working in that realm, and how we 
can support your students if they go on to become farmers and 
ranchers?
    Dr. Abdullah. Thank you very much, Congresswoman Schrier. I 
very much appreciate your question.
    There are some, of course, answers I could give 
anecdotally. I will tell you that there is a large percentage 
of our students that come from farmer and rancher backgrounds. 
Many of them have chosen Virginia State, and I imagine many of 
our 1890s--because, if you will, it is the family business and 
they are interested in going into the family business.
    As a matter of fact, I might argue, again, without 
statistics, that it is actually more of a challenge to get 
young people to go into food and ag sciences who have not 
previously been, if you will, previously had the experience in 
food and ag sciences. And so, many of our students have already 
had some experience in food and ag science.
    On the other question, we have a lot of experts in our 1890 
community that are working on answering the questions that you 
put forth just now, in terms of how do we make sure that Black 
and minority farmers have access to capital, have access to the 
resources that they need in order to build their business. I 
regret that we may not be able to give you definitive answers 
to some of those questions, but we stand at the ready to 
provide the answers for Congress to be able to have an impact 
on policy as we continue to move forward, to make sure that the 
food and ag science world is an equitable world.
    Dr. Nave. I would add to that. Thank you, Congresswoman 
Schrier, for that question.
    We continue to try to expand our partnerships in order to 
address those very issues and concerns that you just raised. We 
are working with our local Farm Bureau, and looking at 
developing an apprenticeship program in order to encourage and 
develop and build a pipeline for students who may have an 
interest or who come from farming backgrounds, particularly 
being here in the State of Mississippi.
    But I also would like to highlight that our extension 
program has a unique program that was funded by the State of 
Mississippi to help small and disadvantaged farmers gain access 
to capital and technical assistance who otherwise would not be 
able to obtain credit through traditional financial credit 
sources. It is our Small Farm Loan Program that assists small 
farmers who endeavor to start new farm operations.
    This is an area that I think is a niche for Alcorn State 
University that we are very much willing to have further 
discussions and share some of our lessons learned, and how that 
program has worked to benefit small farmers here in the State 
of Mississippi.
    But, I believe you addressed partnerships with our local 
Farm Bureaus, through state legislatures, as well as working 
with some of our own campus vendor partners, such as our food 
services, to expand opportunities for students and to address 
these very real issues that that you brought to light.
    Dr. Jones. I don't know if the time will allow for a 
response, given it is 10 seconds; but, the youth development 
piece becomes really critical, and focusing in on how we work 
with young people through 4-H or through other development 
programs to expose them. I can't give you a number offhand of 
how many move immediately into the farming world or going back 
into that space, but I will say that President Abdullah is 
absolutely correct in that we have a much greater chance with 
those individuals who have been exposed. I think the 
scholarship program is going to help tremendously as we move 
forward.
    I do think we have to do even a better job of helping youth 
to understand diversity of agriculture, and that agriculture 
actually is everything. And so, how do we make that, if you 
will, sexy to them.
    But I would just go on to say, last, in terms of the 
technical support, that is a space that all of us, through our 
cooperative extension units, are doing a great job of providing 
that kind of technical experience to the limited resource 
farmers. And that is something we are very proud of, and that 
is something we do a great job as opposed to what is happening 
in the 1862 environment.
    Ms. Schrier. Thank you all very much.
    The Chair. Congressman LaMalfa, thank you. I am not sure if 
Congressman LaMalfa is with us. I see his icon there.
    Mr. LaMalfa. I am right here, ma'am.
    The Chair. Great.
    Mr. LaMalfa. I am reaching things here. So, how are things?
    The Chair. Very good, very good. Thank you for being with 
us. Do you have questions for our witnesses?
    Mr. LaMalfa. Yes, I just wanted to go over one real quick 
with Dr. Jones. Is that okay?
    The Chair. Of course. It is your time.
    Mr. LaMalfa. Okay.
    Just looking at the issues with campuses and the opening of 
them or reopening this year, I wonder what were some of the 
biggest issues you were able to get by with at Fort Valley 
State this fall in reopening and making things continue to work 
on a rural campus like that?
    Dr. Jones. Well, thank you, Congressman LaMalfa, for that 
question.
    As you can imagine, it was a tremendous challenge trying to 
ensure the safety and well-being of everyone, not just our 
students, faculty, and staff, but also visitors as well who 
came up to the campus community.
    As I mentioned earlier, the support we received through the 
CARES Act funding was enormous. We would not have been able to 
stand up our technology infrastructure in the way that we did. 
And even though we were in the face-to-face environment, we 
still had to move a lot of our services and programs into the 
virtual space because of the size of the groups. And I will say 
that with the utilization of that technology actually what we 
saw was a much larger number of students participating.
    The students did a great job of taking advantage of the 
resources we had in place; but, just increasing our testing 
capacity to ensure that we can determine where the hotspots 
were and we could mitigate further spread of the virus, that 
was just really challenging staying on top of that. But our 
staff and faculty did a great job, as long as we kept them away 
from the parties, things went reasonably well.
    But, we learned a lot and as we put our plans in for the 
spring semester, I think there are a number of changes that we 
have made that will enhance the spring face-to-face term.
    Mr. LaMalfa. How has that affected, Dr. Jones, you were 
mentioning, a bit earlier, your research you are working on 
with animals and some of the synthetic products they need, or 
that are used, and that you had success, according to my notes, 
on reducing usage of synthetic drugs in order to keep animal 
health.
    And so, has your research been able to move fairly----
    Dr. Jones. Yes, because of the PPE--I mean, we obviously 
had to put a lot of things in place for the researchers who 
were spending time in the labs, and early on it may have been a 
challenge. But as we learn more throughout the pandemic, I 
think we were able to move our research agenda forward. And, it 
is just--everyone had to learn how to operate and/or navigate 
in this new environment, but as I said in my opening remarks, 
quite frankly, we have learned a lot during this pandemic that 
actually will help us to become even more efficient as an 
institution and how we can leverage this technology, going 
forward.
    But the research continued to move forward, slower at the 
early stages, but we have been able to move things along as we 
learn more. You know, as we started out early on to our 
community, we don't know what we don't know, and as we learned 
more, we got better and better in this environment.
    But we are still going to be challenged in the spring 
semester.
    Mr. LaMalfa. Yes. Well, hang in there, sir. I hope by 
spring that we have a lot better handle on the entire 
situation.
    So, Madam Chair, I will yield back. Thank you, and thank 
you, Dr. Jones, for your time with us here today.
    Dr. Jones. You are welcome.
    The Chair. Thank you so much for that information, and we 
do wish the best for our students. Those who are operating 
remotely, that has its own unique challenges for them and their 
families, and the health of our students everywhere operating 
in person as well, we are very prayerful about that, and wish 
the best. You all have such an enormous task in making sure 
that not only the students, but your faculty, staff, everyone 
stays safe on campuses.
    We now have Congresswoman Chellie Pingree for your 5 
minutes. Thank you so much for your leadership on so many 
issues related to agriculture, and your work on the 
Appropriations Committee, which does so much of the work for 
appropriating the funds for these fantastic programs for the 
1890s.
    Ms. Pingree. Great. Well, thank you, Madam Chair. Thank you 
for holding this hearing. Like Representative Schrier, we don't 
have an 1890 institution in our state, so it has been 
fascinating to hear from you and read the background, and I 
really appreciate having this hearing and my colleagues joining 
in on this.
    I also wanted to just recognize when Representative 
Thompson asked you some of the questions about funding. As the 
Chair mentioned, I am on the Appropriations Committee, and 
would be happy to follow up with all of you at another time 
about how to make sure that we are pushing for the funding 
levels that you are asking for. I have been a long-time 
supporter of research. I am a huge fan of cooperative 
extension. So, to hear that there isn't parity on those issues 
is troubling to me, and I would be happy to work with you on 
that.
    And also, the understanding that--I think one of you 
mentioned that seven of the 19 1890 institutions did not 
receive state parity, the one-to-one match, and that concerns 
me as well. Given that states are suffering such revenue 
shortfalls, it is a very contentious issue in Congress about 
whether we will give them more funding. But my guess is, as 
they experience shortfalls, it will make it even more difficult 
for them to meet that match. So, I would love to talk to you 
more about that.
    But let me just ask you a couple of specifics. Dr. 
Abdullah, you wrote Congress back in April that one of the 
immediate steps Congress could do would be to urge the United 
States Department of Agriculture to release your appropriated 
Fiscal Year 2020 funding as soon as possible. I know 
Representative Alma Adams sent a letter on this, but I am 
interested to have an update on that. When did the USDA 
ultimately release your 2020 funding, and did they issue some 
guidance about the carry-over authority?
    Dr. Abdullah. Thank you very much, Congresswoman. I 
appreciate your question.
    The funds were released, and we did get parity as relates 
to the carry-forward issue. I really appreciate you bringing up 
and helping to champion parity with our states, and to make 
sure that we can get all of our institutions to have quality 
access to the match. So, thank you.
    Ms. Pingree. Sure. I mean, I really appreciate the work 
that you are doing to help our next generation of farmers. It 
is so critically important with the average age of our farmers 
going up. And like I said, I would be happy to work with Mr. 
Bishop on that. I am sure it is something that he strongly 
supports.
    Another interesting question for me is there have been a 
lot of challenges around the National Institute of Food and 
Agriculture--NIFA, it is called--at the USDA. It is the arm of 
the Federal Government that provides land-grants their capacity 
funds, and administers competitive grants. I have been really 
concerned about the relocation, the delays, the loss of staff. 
So, if any of the witnesses have a comment just on how has your 
experience been in dealing with NIFA in the relocation? Do you 
think the agency has that capacity to provide you with the 
support that you need? If any of you want to comment.
    Dr. Jones. I will be glad to address it, at least from our 
perspective.
    You know, it is no secret. I think that things were, 
because of the move, certainly a little slower, but that was to 
be expected. In terms of response time, we know it is a great 
challenge. I think the bigger loss is the loss of the knowledge 
and some of that expertise that was there, and also just 
knowing who to call. You know, we had the luxury of knowing who 
to call.
    But, it certainly has been a challenge. I think they have 
been working tirelessly trying to get up to speed to support 
our institutions, and we have had great collaboration with the 
senior team, if you will, and have tried to work through any of 
the challenges that we face.
    But, it was expected. I guess what will be most interesting 
is how we are able to move the needle forward next year and 
will we be able to pick up that response time and the knowledge 
base that will be needed to support all of us.
    Ms. Pingree. Any other comments?
    Dr. Nave. I appreciate your question.
    Likewise, to add to President Jones, the delayed 
communication has delayed some of our programming and our 
ability to move funding. Things that used to take a month take 
3 or 4 months, and so we are concerned as we begin to restaff, 
which we anticipate will move some of these challenges off the 
table, that there is a focus on diversity to make sure that we 
have equitable representation amongst the staffers that they 
are bringing on board.
    Ms. Pingree. Great. Well, thank you again for your 
presentations today, and I yield back, Madam Chair.
    The Chair. Thank you.
    At this time, I would like to ask my very good friend, 
Congressman Rodney Davis, for his 5 minutes. Rodney----
    Mr. Davis. Hang on, you cut out.
    The Chair. You were smiling as if you knew I was going to 
say it was you, and then I was going to say we were good 
friends.
    Mr. Davis. Hey, I am excited and very accepting of that 
gesture, because we are good friends. But I knew because I 
usually have to sit next to Doug LaMalfa, and I am on his left 
side, which is his bad ear. So, it is difficult to talk to him 
in the hearing room.
    The Chair. You have to pass notes.
    Mr. Davis. You know what, we will, and then we will 
probably get chastised by you at the next hearing.
    But hey, look. I hope all the witnesses know how much fun 
we have together in a bipartisan way on this Committee, because 
we are excited to be able to talk about what your universities 
mean to our entire higher education system, especially when it 
comes to ag. And I have really been focusing in my career here 
on ag research. I am proud to have formed--helped form the Ag 
Research Caucus with another really good friend on this 
Committee, Jimmy Panetta. Jimmy, I don't want to scare the 
witnesses, but if it is any consolation to each of you, Jimmy 
looks worse in person than he does on video. So, you will be 
fine when you see him. Don't jump when he gets to his 
questions.
    But, the Ag Research Caucus and the 13 colleges, 
universities, and community colleges that I represent in 
Illinois, they include the University of Illinois, another 
land-grant institution, that has been partnering with Tuskegee 
University as an active partner in the AIFARMS project, the 
Artificial Intelligence for Future Agricultural Resilience, 
Management, and Sustainability Institute. And that is the U of 
I's $20 million new AI institute that is supported by NIFA and 
the National Science Foundation. And this project, working 
together, is going to bolster technologies that contribute to 
production practices, digital agriculture, and also help 
support women and minority farmers to research on livestock 
operation, autonomous farming, and also soil and health 
environment.
    But I am very concerned because I represent so many 
universities. I have three kids, and one of those universities 
that I represent, I know how COVID has impacted their lives, 
the students, and also the university's capabilities.
    And speaking of ag research, the only question I have here, 
and I will throw it open to whomever wants to answer first. How 
has COVID impacted some of your ag research projects? Has it 
delayed them? Has it made it harder to move the needle forward 
on important ag research at your universities? And go ahead and 
whoever wants to answer first, just unmute yourself.
    Dr. Abdullah. Thank you, Congressman Davis.
    The answer to your question, of course, is quite diverse. 
There are some of our faculty, some of our researchers who are 
involved in clinical research that may only include a few 
people that are able to conduct their research by and large the 
way that they were conducting it before COVID. The vast 
majority of researchers at Virginia State have been impacted by 
COVID-19, and particularly those that are doing a more applied 
and applicable research that are in the communities, working 
with farmers and ranchers, now understanding that you have to 
maintain a certain level of distance. We have to make sure that 
we keep everybody safe.
    It has been a challenge across the entire research 
enterprise, not just in ag, and not just, of course, at 
Virginia State, and as you mentioned, University of Illinois. 
And it is a challenge that all universities are trying to do 
their best to meet.
    Additionally, the lack of travel. As 1890 institutions, we 
have a lot of collaborations in and amongst ourselves, but also 
with other 1862s like University of Illinois, and the lack of 
travel has meant that researchers being able to get access and 
hands-on access to other researchers' research has been quite a 
bit more difficult.
    And so, this is a new world. It is, of course, a research 
challenge isn't any different from the challenge in a 
classroom. It isn't different from the challenges that we all 
face with the pandemic, but it has been a challenge and it is 
something that we are going to continue to have to look at.
    Mr. Davis. Great, great. Dr. Nave?
    Dr. Nave. Yes, I would just add in addition to what 
President--and I appreciate the question.
    It has had an impact. We have been able to adjust as time 
has moved on, and we have learned some things. But overall, we 
have slowed in our production. In addition to what we do in 
terms of partnerships with other 1862 or 1890 institutions, but 
also the research opportunities or the research projects with 
other ag-related agencies. If those agencies have shut down, we 
have not been able to complete some of those projects, and we 
have had to do various extensions.
    But we are hopeful that as we move into the next year, we 
continue to learn more about the pandemic and how to make the 
adjustments that we are able to carry out the outcomes of our 
projects, but overall, the research has definitely been 
impacted.
    And one area that I would throw out there with the 
restrictions and the social distance, it creates additional 
challenges in our facility spaces, and how the researchers are 
able--or how many people they can have in at one time in order 
to conduct the research, and whether or not we are able to or 
have the additional resources to renovate or modify the 
research space to be able to carry out the research. So, it is 
has been a challenge, but we continue to work through it.
    Mr. Davis. Great. I see I am out of time. Sorry, Dr. Jones. 
But I appreciate the opportunity to be here, Madam Chair. I 
apologize, I have to go to another hearing, so forgive me, and 
I will be happy to read the record later.
    Thanks, everyone. I yield back.
    The Chair. Thank you very much. Our next Member is 
Congressman Panetta of California, your 5 minutes. Thank you.
    Mr. Panetta. Thank you, Chair Plaskett. I appreciate this 
opportunity. Let me get to some better light because of the 
comments of my good friend, Rodney Davis. It won't make it 
better for you, but at least you will see some aspects besides 
the outline of my big nose and big ears.
    Look, this says a lot that in just looking at the make-up 
of the Brady Bunch boxes that I am looking at right now, and 
the make-up of the membership on BHR. It says a lot about Chair 
Plaskett's leadership, but it also says a lot about the make-up 
of the Agriculture Committee, and our concern with these issues 
that we are listening to today, as well as the research issues 
that we are all focused on for our districts. You have a number 
of Members who are literally from all over the country that are 
on this Committee, from California all the way up to Maine, and 
that says a lot. You know, even someone like me coming from the 
Central Coast of California, as Chair Plaskett likes to say, 
the Salad Bowl of the world, I do not have any land-grant 
institutions in my district, and a few Members on this 
Subcommittee don't. But the fact that we want to hear about 
these, because we know how important they are to our 
agriculture, to our research for agriculture, I think says a 
lot about this Committee. And so, I just have to point that out 
to you, and how much we appreciate you being here and taking 
the time to prepare and to present your information to all of 
us so that we can learn from you.
    As I said, I come from the Central Coast of California, and 
we have a lot of specialty crops there. It is not the types of 
crops that my good friend, Rodney Davis, although he does have 
some specialty crops in his district, just very little, he has 
mostly the types of crops where you just send machines through. 
We don't. We have the types of crops where it takes people. It 
takes people to get in there and to have that human discernment 
that technology actually hasn't caught up with. So, we have yet 
to mechanize appropriately when it comes to the harvesting of 
our specialty crops.
    But I also know that, and as you probably are well aware 
of, in our district and in our colleges that we have, two 4 
year and four 2 year colleges there, we have a lot of--our 
curriculum is a lot about farmworkers. It is a lot about Cesar 
Chavez. It is a lot about immigration.
    And so, I was just wondering if that plays any role in your 
curriculum? Do you talk about the contributions of farmworkers 
to our agriculture in your curriculum?
    Dr. Abdullah. Congressman Panetta, thank you very much for 
that question.
    The answer is yes. We think it is really important that our 
students understand not just what it takes to move the food and 
agricultural industry, but to understand the history of food 
and agriculture and how people--in most cases, underrepresented 
or those immigrants or former slaves or slaves, the roles that 
those people played in the building of the food and ag system 
here in the United States of America. So yes, sir, that is very 
much an important part of our curriculum.
    Mr. Panetta. Mr. Jones, would you agree?
    Dr. Jones. Yes, absolutely, and I think that piece is very 
important to helping those who plan to go into these careers 
that they have an understanding of the history. And so, I think 
that part is very vital, and probably something that is very 
special to--and unique to each of our institutions.
    Mr. Panetta. And I apologize for calling you Mister. Dr. 
Jones, thank you.
    Dr. Nave, would you agree?
    Dr. Nave. Yes, I do agree, and it is not about just giving 
them the introduction, but making sure that we weave it 
throughout the curriculum, as well as in any co-curricular 
activities that we put on board. Ag is really important to this 
institution, as well as to the state, and so we work to make 
sure that students are well educated.
    But I would also add that in our extension as we are 
working in the communities with our 4-H programs, we also 
include that education in those program areas as well to make 
sure that we are responsible in educating our citizenry.
    Mr. Panetta. And obviously--and I am getting close to the 
end of my time, but real quickly.
    Obviously with your institutions and your curriculum and 
everything that you are doing, you are doing a great job 
getting people into your colleges. But my question has to come 
with what are the barriers once they graduate college? What you 
are seeing now, and what are you doing to help them subsequent 
to their education? Anybody want to take my last 12 seconds?
    Dr. Abdullah. I think it is very important, sir, that we 
have a sense of lifelong learning, that we continue to educate 
our young people to be in the high demand careers so they can 
get going right away. And then, of course, part of that is kind 
of COVID-related. As COVID has started to hit our country, how 
do we adapt to make sure that people are ready for the new 
workplace? So, we are all committed to making sure our kids are 
prepared.
    Mr. Panetta. Thank you, Dr. Abdullah.
    Madam Chair, I yield back. Thank you.
    The Chair. Thank you very much, and as you heard, we really 
have Members from all over the country.
    I would now invite the Member from Indiana, Mr. Baird, for 
his 5 minutes.
    Mr. Baird. Well thank you, Madam Chair. I appreciate the 
opportunity, and it is fascinating, because of my ag 
background, to hear the direction that the universities have 
taken. And so, I certainly appreciate all the witnesses being 
here.
    I have a couple of questions that might be worthwhile, one 
of those being, Dr. Nave, you mentioned 4-H was an important 
part of the program. I think you also mentioned that artificial 
intelligence and drones. So, would you mind elaborating a 
little more on how you integrate your program with the 
extension service? And I am a great supporter, just as 
Representative Pingree is, of the extension. So, I would like 
to have comments from the witnesses on that area.
    Dr. Nave. Thank you, Congressman Baird, for your question. 
I appreciate it.
    4-H is a very vital program here at the university, and so 
we have been working to extend and expand the number of 4-H 
locations that we have throughout the state so that we have 
agents who are available and ready and continuously recruiting 
students into those programs. We see it as vital to our 
pipeline, to the workforce pipeline in moving those students 
from 4-H into ag discovery, into viable careers in the 
agriculture area.
    In making sure that the research--we have research-informed 
and research-based information. Our extension agents work hand-
in-hand with our faculty and staff so that we can translate 
what we are learning in our research areas, in the classrooms, 
back out into the communities with our 4-H programs.
    It has been a significant push to expand the number of 4-H 
partnerships that we have throughout the state.
    Mr. Baird. Dr. Jones, do you have comment?
    Dr. Abdullah?
    Dr. Abdullah. I do. I do. We are very excited about our 4-H 
program. It is one of the, in my mind, highlights of our 
extension enterprise. I work very closely with Virginia Tech, 
the Virginia Cooperative Extension, our two 4-H and youth 
development agents are Dr. Chantel Wilson and Dr. Maurice 
Smith, who do an incredible, incredible job of developing 
material for our students here. We want to make sure that as an 
1890, as Virginia State University, that we are providing those 
quality opportunities for all young people, making sure that 
whether those who come from rural or urban environments, 
whether they are Black or white, they get an opportunity to 
participate in 4-H. So, we are very active.
    Mr. Baird. Dr. Jones, are you----
    Dr. Jones. What I will say, and I echo both Presidents' 
comments, but in terms of your question around the sort of 
technology or precision agriculture, artificial intelligence 
and big data, the technology piece is one that is vital to 
moving forward in this area. One of our centers that we hope to 
have funded in the future is the Center for Excellence in 
Emerging Technologies, which Fort Valley is well positioned to 
provide tremendous support in this area. But, that is a space 
that many of us are providing great support, but we need the 
expanded resources in order to accelerate what we are doing in 
these areas.
    So, that is something that we think it would be important 
moving forward, the additional funding for the Centers of 
Excellence is critical.
    Mr. Baird. Thank you. I have one other question.
    The discussion about the ability to get into farming, and 
when you look at conventional agriculture that we have in the 
Midwest, it is almost prohibitive for a young farmer to buy the 
land, buy the machinery, and get in. So, the challenge for 
young people to get into production agriculture is a tremendous 
challenge all across the industry.
    But I will say, my observation at this point--and I will 
let you to comment--well, I have only have 10 seconds, so I 
guess my observation would be with restaurants and someone 
wanting to know exactly where their food is coming from, there 
are more opportunities today for young people to get into some 
of these specialty items than I have seen in the past years. 
And so, if you want to--I am out of time, I guess. So, just nod 
your head if you agree. If you don't, just shake your head no.
    I thank you, and I yield back.
    Good deal. Thank you.
    The Chair. Thank you very much, and that is a topic that we 
have talked about so much.
    Congresswoman Xochitl Torres Small, so good to see you, and 
thank you, and your questions coming from New Mexico.
    Ms. Torres Small. Thank you so much, Madam Chair, New 
Mexico State University is our state's land-grant institution. 
They are also a Hispanic-serving institution, and so what we 
have been talking about, about the importance of diversity for 
the future of our ag economy is crucial. And a clear example of 
that is right now facing COVID-19, because our cooperative 
extension service has been able to use existing routes of 
communication with key groups of individuals who are especially 
vulnerable in the wake of COVID-19. Also in the industry, in 
the ag industry, that is so vital as we face the supply chain 
challenges that we are seeing, to reaching and serving our 
entire country.
    Dr. Nave, I would love to hear from you any work that you 
have done to help communicate as a trusted resource the 
challenges of COVID-19, and support our ag economy and our 
diverse populations.
    Dr. Nave. Thank you, Congresswoman, for that question. I 
appreciate it, great question.
    We have utilized our extension network in order to 
translate information about COVID-19. Some of our program has 
been specifically focused on helping parents on how to explain 
the different guidelines associated with COVID-19, being a 
resource for parents who may not have internet access, that 
they can come to some of our centers so that their students can 
complete their homework, that they can participate in classroom 
activities. Our extension agents in ag have also partnered with 
our School of Nursing to be able to go around in our 
communities to provide healthcare service and address the 
health disparities issues. But there is--we have a mobile bus, 
a mobile clinic that we are able to use and partner with ag.
    But, I will tell you that there is an opportunity for us to 
expand. I think this came up in an earlier question. Our 1862 
partners have the resources to be in more communities and we 
know that there are more low-resource communities that we need 
to be at to provide these additional services to address the 
health disparities, the food insecurities, the knowledge gap. 
But the resources, right now, our resources only allow us to be 
in 19 counties. So, as we are able to procure additional 
resources, we can do a much more thorough job and be of more 
benefit to more of the low-resource communities in the State of 
Mississippi to bring and address some of these matters that are 
being discussed today.
    Ms. Torres Small. Dr. Nave, I am so glad you brought up 
additional resources. I wholly agree, and of course, funds 
through NIFA is a fundamental part. We have talked about that.
    But another part of it is I had the chance to work with 
Congressman Johnson on H.R. 6956, Farming Support to States Act 
of 2020, which would get money directly to state farming 
agencies, as well as our cooperative extension services. It 
provides another--especially in the midst of a crisis, an 
opportunity to directly fund our cooperative extensions.
    Dr. Jones, you mentioned in your testimony--in your written 
testimony some of the work you have done on meat packing plants 
to help address supply chain issues. I would love to hear how 
additional resources going directly to our cooperative 
extension services could help Georgia, and helps our supply 
chain network.
    Dr. Jones. Thank you very much, Congresswoman, and that is 
an area that the pandemic actually put a significant spotlight 
on as we--the COVID challenges that we have throughout the 
state and some of the processing centers. It created some real 
challenges, particularly for some of those small farmers. But 
what we learned during the pandemic is that even mid-size and 
larger farmers were impacted tremendously. This gave us an 
opportunity to work with Congressman Bishop and some of our 
local--our Commissioner of Agriculture. The need for us to 
expand our processing facility for red meat, and we have been 
staffing up to many of our processors that--not processors, but 
our farmers were sending their meat to be processed across 
state lines. And so, in order for us to help meet that need, we 
had to pause for a moment to staff up so we can start 
supporting this important endeavor. And that food is not going 
to waste as a result of not having access.
    So, we see that as being very important, and we are looking 
forward to continuing to expand that. But we need more 
resources. For example, our meat processing facility, we need 
to enhance the cooler space in order for us to support--we 
could do more if we had a larger cooler space. So, indeed, a 
very important priority for our university, and I appreciate 
our staff for stepping up during these challenging times.
    Ms. Torres Small. Thank you. My time has expired.
    The Chair. Thank you so much.
    Congressman Johnson, it is now your 5 minutes. Thank you 
for waiting patiently for your opportunity to speak. I see your 
camera is on, and he may have stepped away from his seat. Well, 
we will come back to Mr. Johnson.
    Congressman Lawson, ``big Al.''
    Mr. Lawson. Okay, thank you. It is so great to see you.
    The Chair. It is good to see you, sir. Thank you for all 
your work in Florida and the capital of Tallahassee, on behalf 
of all these--oh, hold on, Al. Mr. Johnson came back. Now 
you're going to get screamed at. I told you the day wouldn't 
end before that happened.
    Mr. Johnson. I chose a particularly inopportune time to go 
to the bathroom. I had the list. I knew when I was up, and I 
thought there was enough room between Xochitl and me, and there 
wasn't.
    The Chair. Me and your teenagers. We will get you.
    Mr. Johnson. Exactly. Well, I apologize to our 
distinguished panel----
    The Chair. Please, go right ahead. You are up for your 5 
minutes.
    Mr. Johnson. Yes, thank you very much, ma'am.
    I do think the testimony has been fantastic, and I know we 
have talked a bit about how some of us are from parts of the 
country that don't have this group of 1890s. And so, for me, it 
has been--I mean, honestly, to hear the Presidents of these 
institutions talk about their efforts to robustly build this 
equity in agriculture has been an absolute treat.
    I want to weave some other institutions into the 
conversation as well, because there is an opportunity for us to 
learn, and clearly, it is not just the job of the 1890s to 
build this equity in agriculture for traditionally 
disadvantaged students, and so it has been wonderful.
    I mean, in South Dakota, we have a land-grant university 
that is an 1862 institution, but they understand the importance 
of stepping up and being a part of this societal change as 
well. And so, they have the Wokini Initiative, which the New 
Beginnings Program is an outcropping of that. Wokini started at 
South Dakota State University. Our appropriators have invested 
in the New Beginnings Program, which is an expansion of this 
program, which really attempts to identify Native American 
students and to recruit them to this land-grant university, and 
to retain them. It is just critically important in states like 
South Dakota with a sizable Native American population. And so, 
I think that is kind of similar to the kind of work that the 
1890s are doing.
    But I also want to ask the Presidents for their advice, 
because we have 1994s, the Tribal colleges in South Dakota, a 
number of them, and so for those of us who want to continue to 
support the mission of these 1994s and in the area of 
agriculture--I mean, I would ask our esteemed panelists, what 
advice do you have for us so that we can support these Tribal 
colleges?
    Dr. Abdullah. Thank you very much, Congressman Johnson, for 
your question. I think it is a fantastic question.
    We all partner well, I believe, with our 1862 partner, and 
we understand that the work that we do, while we lead the work, 
and while of course, it is part of our engrained mission, and 
it is really everyone's work, and that everyone has to really 
be a part of that work. So, I appreciate you bringing that to 
the table.
    In terms of how we support the 1890s and the 1994s, is to 
look at them as the primary leaders on certain aspects of 
projects in their respective states. I think for so many, they 
look to the 1862s to really be the leader of much of the work 
that happens in the state, and that the 1890s or sometimes the 
1994s become a secondary player for some projects. For projects 
that specifically deal with the inequities of the states, 
specifically deal with making sure that marginalized people are 
engaged and involved. It is critically important to make sure 
that the 1890s and the 1994s are the leads, that the funds are 
invested in an appropriate and an equitable manner, and to 
allow your institutions and our institutions, to really have 
that opportunity to do that.
    So, that would be my recommendation.
    Mr. Johnson. Yes, thank you.
    Other panelists?
    Dr. Nave. I would thank you for the question. Great 
question.
    I concur with the President. Meaningful partnerships and 
collaboration so that we can cross-pollinate onto having a 
clear understanding of mission and where there is 
compatibility, such that you are not pulling people out of 
their niches or extending them beyond what the capabilities or 
resources are, and then an understanding that some of these 
partnerships, that there are more resources, may need to go to 
the 1890 or the 1994s, simply from a leverage perspective or 
because of the inequity that has historically existed, those 
institutions may not be at the same place. So, in that 
partnership, defining equitable distribution of resources 
beyond the dollar amount, but looking at the impact of how that 
funding is going to help advance the partnership and the 
collaboration so that both institutions are able to see some 
measurable gains.
    Dr. Jones. The only thing I would add is that I think one 
of the things that is often not known is how much we 
collaborate as 1890 system with the 1862s and other 
institutions across the country. Many of our research projects, 
one that I mentioned in my submission, spoke about multiple 
institutions, over 30 scientists being engaged. I think that is 
our pathway forward. It is the opportunity for us to continue 
to collaborate and partner. The President is absolutely correct 
that we all have to work within those boundaries or where our 
expertise is, but solving today's and tomorrow's problems is 
going to require greater collaboration from our institutions. 
And quite frankly, that is something that I believe the 1890s 
do very well, probably better than most. And I think there are 
opportunities for further engagement.
    Mr. Johnson. Well, thank you, Dr. Jones, and thank you, 
Madam Chair, for your indulgence on my time.
    I would just close by thanking the Presidents of these 
institutions. I mean, clearly, our country is strongest when we 
are providing education. Clearly, that is the hallmark. That is 
the key, and we have a better nation because of the tremendous 
students that your institutions have turned out, decade after 
decade, and just honestly, thank you.
    The Chair. Thank you so much for your questions, as well as 
your remarks.
    Congressman Lawson, your 5 minutes. Thank you.
    Mr. Lawson. Okay. Thank you very much, Madam Chair. It is a 
real privilege to be here with you, and to have and welcome our 
guests to the Committee.
    I am a Florida A&M University graduate, and I grew up in 
the country and grew up farming, and my father-in-law taught in 
agriculture at FAMU, and probably his son, who finished from 
Tuskegee also at Maryland Eastern Shore, Henry Brooks. I am 
sure that some of you all know Henry Brooks.
    And so, it has been my mission to make sure the 1890 
institutions get what they deserve for the remarkable work that 
they have done over all these years.
    One of the questions that I have, and this will be for 
everyone--I have been concerned about recruiting and retaining 
students and faculty is the key need in the 1890 institutions. 
In the various research missions how has COVID-19 pandemic 
impacted your ability to attract both students and faculty, 
provide them with resources to continue conducting their 
research? And that is open to everyone.
    Dr. Abdullah. Thank you, Congressman Lawson. It is good to 
see you, sir. Of course, I did time at your alma mater, and so 
I am a fan of Florida A&M University.
    I wanted to say this. First, I want to--I am thankful the 
funds, the CARES Act that came to higher education and came to 
our 1890 institutions, because those funds went a long way to 
making sure that during this very difficult time, this very 
difficult financial time, that we were able to do the best we 
could to make sure that we could retain our talent, our faculty 
and staff at Virginia State and across our 1890s. And also, so 
that we could maintain our programs so that we could recruit 
students into our programs.
    As we continue to go forward with the kind of financial 
uncertainty, we remain thankful for any future funding that 
comes through for higher education and for our 1890s to make 
sure, again, that we are able to keep people working, keep 
talent in the building, and keep students coming to our 
institutions.
    So, thank you very much. The work of Congress has been 
incredible to helping us continue to go forward.
    Mr. Lawson. Right. Anyone else care to comment?
    Dr. Nave. Thank you, Congressman Lawson, for the question. 
Great question.
    It has been a challenge. We did start our freshman class 
off as smaller than what has historically been the case, but as 
we continue to look at our recruitment efforts and 
understanding what works and being more intentional, the 
funding that was provided that we are extremely thankful for to 
recruit the students through the USDA Scholars Program was very 
instrumental in assisting the university with being able to 
attract and retain the students. It helps make the educational 
experience affordable, and they don't leave saddled with the 
student loan debt that makes--when they start their first job, 
their income is prohibitive.
    In terms of faculty and staff, more on the way of research. 
It is--even if we are able to be competitive in terms of 
salaries or close to competitive, having the infrastructure and 
the facilities that these researchers are able to conduct 
state-of-the-art innovative research becomes the next challenge 
for our institutions. Having resources to secure post-docs and 
to support graduate students in the lab.
    Other areas that we have seen across other fields where 
there has been additional funding opportunities or programs 
that those different departments can attack are used to attract 
staffing. So, it is a multi-faceted approach between 
scholarship dollars, retention dollars, and facility 
infrastructure in order to make sure that we keep the highest 
quality talent in our institutions.
    Mr. Lawson. Okay, thank you.
    And, since the Chair only gave me 10 minutes, I am going to 
try to get in another question.
    Anyway, for addressing food insecurity and educating our 
ranchers and farmers on future threats to their crops, I am 
very proud of what our ability in 1890 to make an impact in the 
community through their existing services.
    What way do you foresee that COVID-19 pandemic having an 
impact on how 1890 land-grant institution can positively 
support their local communities? Because, really, in a district 
that stretches around 300 miles and a lot of rural areas in 
between, and we have a lot of food insecurities, so it is 
becoming very important. So, I just wanted to see what any of 
you all in the time that I have left can comment on that.
    Dr. Jones. I would just say that certainly the greatest 
challenge I think we face with extension is the travel bans, 
and our sort of inability to be as visible as we have had to in 
the past, and the sort of technology challenges that we face, 
realizing that not all communities have the same access to even 
the technology. It is easy enough to say, ``Hey, we will just 
move everything to the virtual space,'' but that is assuming 
that the person on the other line has the ability to receive 
the communication.
    Mr. Lawson. I am going to cut you off for a minute because 
I really need a response on that. What can we do on this 
Committee to help these universities more?
    Dr. Jones. Well, what I would say--there has been a theme 
around infrastructure. I think that is critical moving forward 
and helping us to move the needle forward. We have to, from a 
recruitment standpoint, retention perspective, we need to 
really focus on that area.
    Mr. Lawson. Okay, thank you.
    Madam Chair, I yield back. I know I got extra time, about 5 
more minutes, but I am going to yield back to you.
    The Chair. You may have got away there because of your own 
educational background. I gave you a little leeway there, but 
now I am going to bring the co-chair of the HBCU Caucus to 
bring us home for her questions, Congresswoman Alma Adams.
    Ms. Adams. Thank you, Madam Chair. You have run a marvelous 
Committee hearing today. I want to thank everyone for their 
participation. I especially want to thank our speakers and 
those who champion our young people at our universities.
    I am an HBCU graduate twice. I am proud. I did do the 
shout-out to my brother in Florida. I gave you a little snake 
thing that you all do down there.
    But anyway, let me say to all of our participants today, 
thank you each for serving on the executive committee, and Dr. 
Abdullah, for your chairmanship there.
    I want to just follow up on some things and put some things 
really on the record. Yes, we have seven 1890s that didn't 
receive a full match, but I have to just be real honest. Having 
served for 20 years in the North Carolina House, I worked year 
after year to secure a one-to-one match for the Federal 
funding, particularly for North Carolina A&T, but at the same 
time, our state's 1862 institutions were easily able to secure 
their matching funds. So, I don't want us to hide behind COVID, 
because there was inequity prior to COVID, but yet, there were 
opportunities for state legislatures, even my own, to find the 
matches for our 1862 schools. So, we have to fix that. It is 
about priorities and our schools, our 1890s, their HBCUs, they 
deserve the same equitable funding. So, I just want to put that 
out there because it has bothered me for a mighty long time. 
So, I do think we need to fix that, and I want to thank 
Congresswoman Pingree for raising that. But we are talking 
about a loss of $51 million in funding that these seven 
institutions have lost over the years. So, I believe Congress 
can do some more to fix it.
    But let me just move on to--since Brother Al mentioned 
something about our facilities, I want to tell you that one of 
my biggest priorities for the incoming Congress is an HBCU 
infrastructure. I just believe that whatever infrastructure we 
do, we have to carve something out there that supports our 
1890s as far as the 1890 Facilities Grant Program.
    So, what my question is, in terms of the best support for 
infrastructure needs on your campuses, particularly in the 
agriculture department, how can Congress or this Committee 
assist in that? And everybody who would like to give us a 
response, we would welcome that. And I do have one more 
question, so if we can be brief on it, I would appreciate it. 
Thank you so much. So, who wants to go first?
    Dr. Jones. Congresswoman Adams, first of all, thank you for 
your steadfast support and your great advocacy. It hasn't gone 
unnoticed, and we appreciate what you continue to do for our 
communities.
    This idea around the infrastructure becomes so critical for 
each of our institutions. Another quick thing that I would just 
mention is that it is great to receive these resources and 
grants, but one of the challenges we face is that oftentimes we 
get an allocation, and it is allocated over a 5 year period. 
So, for example, my Center for Innovation and Entrepreneurship, 
you are waiting almost 5 years before you receive the funding. 
And in our state, we don't have the ability to move that 
project forward until all funds are secured. And so, our 
community is on hold for 5 years until we are able to do that. 
If there was a way for those funds to be allocated up front, I 
think we would be able to do much more. But that has been one 
of the greatest challenges our institution has faced.
    Ms. Adams. Okay. So, if we can move on to the other two 
individuals, we have like 30 seconds. If you could give us your 
quick response, I would appreciate it.
    Dr. Nave. Thank you, Congresswoman Adams.
    We are very appreciative of the facilities funds we 
currently receive, but they allow us to do energy projects. The 
infrastructure, to me, and with speaking with my dean of ag, is 
more on a larger scale for us to be able to transition and move 
into some of these emerging technology areas and to be able to 
have the truly state-of-the-art facilities that allow us to 
train the 21st century workers.
    Ms. Adams. Okay.
    Dr. Abdullah. Congresswoman Adams, thank you again for all 
of your support for HBCUs, and I would just like to ask that we 
increase the Fiscal Year 2020 appropriation of 1890 facilities 
grants from $20.5 million to $30 million. That would be very, 
very good.
    Ms. Adams. Great. Thank you.
    Madam Chair, I am out of time. You know I can talk some 
more, but I will yield back right now. Again, thanks everybody 
for your participation. I appreciate it.
    The Chair. Thank you very much.
    Dusty, Congressman Johnson, do you have any closing remarks 
that you would like to give?
    Mr. Johnson. Yes, thank you very much, Madam Chair.
    I think we all know too well that there are chapters in our 
nation's history particularly related to race that are not a 
source of pride, but when I look at the chapters in our 
nation's history that are worthy of pride, frankly, the 
creation of the 1890s institutions is among them. And our 
panelists today are adding additional pages to those chapters, 
because we know that our nation has a need for leadership in 
agriculture, and it is a need that is going to be even bigger 
in the days to come than it has been in the past, and our 
panelists and their wonderful colleges and universities are 
fulfilling an obligation our country has to provide educational 
opportunities to students in historically disadvantaged areas 
and populations, and marrying those together, the need for ag 
leadership and the obligation to provide this great educational 
training is something that our panelists are making happen 
every single day, and I just want to thank them for being 
authors of the pages of those chapters of pride.
    The Chair. Thank you. Thank you so much, and the work in 
South Dakota and other locations with the colleges, the 1994 
colleges, and Native Americans is so vitally important. We know 
that the 1890 colleges will offer whatever support, lessons 
learned, best practices, so that they can continue to be 
successful and continue to educate those marginalized 
communities as well. We are all in this together.
    I am so grateful that we were able to have this hearing, 
and I want to thank the staff for putting this together. I want 
to particularly thank Alma Adams and her staff for the guidance 
and support that they provided to us as well, and to our 
testifiers. We can all agree that our students are a primary 
concern as we work through this pandemic, and even before the 
pandemic. The next generation of farmers deserves substantive 
funding to support important research initiatives. Under my 
Subcommittee's jurisdiction, I look forward to supporting 
existing farm bill provisions that will assist in the success 
of ag programs and ag students.
    Support for the 1890 institutions is strong on this 
Committee. That is evident in the 2018 Farm Bill, with that 
legislation providing critical support for scholarships, 
Centers of Excellence, and addressing issues to ensure equity 
between the 1890s and the 1862s. While I am proud of the 
achievements we have secured in the 2018 Farm Bill, there is 
more to be done to support our students, our researchers, our 
extension professionals. The pandemic and the challenges 
associated with it have underscored the existing issues that 
were already there. The fact is that more work needs to be done 
to support your institutions.
    To the witnesses, thank you so much for your testimony. As 
you can see on this Committee, you have support from many, many 
sectors in this country. Also, we have overlap with individuals 
who are appropriators. I know that you all not only work with 
Congresswoman Pingree, but also Sanford Bishop, who chairs the 
Agriculture Subcommittee on the Appropriations Committee, and 
is always available to our HBCUs and our 1890s.
    As we look ahead to the next Congress and to the next farm 
bill, I look forward to continuing to work with you all and my 
colleagues on the House Agriculture Committee to further 
support the 1890s system and the communities that you serve.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material, any supplemental written responses from 
the witnesses to any questions posed by a Member, any 
additional information you would like to be on the record.
    This hearing of the Subcommittee on Biotechnology, 
Horticulture, and Research is adjourned. Thank you all so much, 
and have a wonderful holiday season. Please stay safe.
    [Whereupon, at 11:54 a.m., the Subcommittee was adjourned.]

                                  <all>
</pre></body></html>
